App. 1

PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1944
ALI RAZAK; KENAN SABANI; KHALDOUN
CHERDOUD, INDIVIDUALLY AND ON BEHALF
OF ALL OTHERS SIMILARLY SITUATED,

Appellants

v.

UBER TECHNOLOGIES, INC.; GEGEN, LLC

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil No. 2-16-cv-00573)

District Judge: Hon. Michael M. Baylson

Argued January 15, 2019
Before: SMITH, Chief Judge,
GREENAWAY, JR., and PORTER, Circuit Judges.
(Opinion Filed: March 3, 2020)

App. 2

Jeremy E. Abay
John K. Weston Sacks
Weston Diamond
1845 Walnut Street Suite 1600
Philadelphia, PA 19103
Ashley Keller
[ARGUED]
Seth A. Meyer
Keller Lenkner
150 North Riverside Plaza
Suite 2570
Chicago, IL 60654
Counsel for Appellants
Sharon M. Dietrich
Community Legal Services
1424 Chestnut Street
Philadelphia, PA 19102
Amicus Appellants
Sophia Behnia
Littler Mendelson
333 Bush Street
34th Floor
San Francisco, CA 94104
Wendy S. Buckingham
Paul C. Lantis
Littler Mendelson
1601 Cherry Street
Suite 1400, Three Parkway
Philadelphia, PA 19102

App. 3

Robert W. Pritchard
Joshua Vaughn
Littler Mendelson
625 Liberty Avenue
EQT Plaza, 26th Floor
Pittsburgh, PA 15222
Andrew M. Spurchise
Littler Mendelson
900 Third Avenue
8th Floor

[ARGUED]

New York, NY 10022
Counsel for Appellees

Gabriel K. Gillett
Jenner & Block
353 North Clark Street
Suite 4500
Chicago, IL 60654
Adam G. Unikowsky
Jenner & Block
1099 New York Avenue

Suite 900
Washington, DC 20001
Amicus Appellees

OPINION
GREENAWAY, JR., Circuit Judge.

This case is an appeal from a grant of summary judg-

ment on the question of whether drivers for UberBLACK are employees or independent contractors

App. 4

within the meaning of the Fair Labor Standards Act

("FLSA"), 29 U.S.C. §§ 201-219, and similar Pennsylvania state laws. For the following reasons, we will vacate

the District Court's grant of summary judgment and
remand for further proceedings.
I.

Facts'

Plaintiffs Ali Razak, Kenan Sabani, and Khaldoun
Cherdoud2 (collectively, "Plaintiffs") are Pennsylvania
drivers who utilize Defendant Uber Technologies' ride -

sharing mobile phone application ("Driver App").

Plaintiffs bring this action on behalf of a putative class

of all persons who provide limousine services, now
known as UberBLACK, through Defendant's Driver
App in Philadelphia, Pennsylvania.3 Plaintiffs bring
individual and representative claims against Uber
Technologies, Inc. and its wholly -owned subsidiary,
Gegen, LLC, ("Gegen," and collectively, "Uber") for vio-

lations of the federal minimum wage and overtime
1 The facts recited in this section are undisputed except as

otherwise noted.
2 Plaintiffs argue that each Plaintiff should be viewed as an
individual for FLSA analysis purposes. However, the FLSA analysis would remain the same regardless of whether Plaintiffs are
treated collectively or individually. See United States v. Cook, 795
F.2d 987 (Fed. Cir. 1986). Additionally, Plaintiffs do not present

significantly distinguishable facts, as all are self -incorporated
drivers and have made similar choices regarding business opportunities within the UberBLACK platform.
3 This case only pertains to UberBLACK drivers, and not
drivers for other Uber platforms, such as UberX or UberPool. All
references to "Uber drivers" only pertain to "UberBLACK drivers"
in Philadelphia.

App. 5

requirements under the FLSA, the Pennsylvania Min-

imum Wage Act ("PMWA"), and the Pennsylvania Wage
Payment and Collection Law ("WPCL").

Plaintiffs Razak, Sabani, and Cherdoud each own
and operate independent transportation companies
("ITCs")4 Luxe Limousine Services, Inc. ("Luxe"),
Freemo Limo, LLC ("Freemo"), and Milano Limo, Inc.
("Milano"), respectively. In order for drivers to contract
to drive for UberBLACK, they must form ITCs. Each
ITC, in turn, enters into a Technology Services Agreement with Uber. The Technology Services Agreement

includes a Software License and Online Services

Agreement that allows UberBLACK drivers to utilize
the technology service Uber provides to generate leads,
as well as outlines the relationship between ITCs and
Uber riders, ITCs and Uber, and ITCs and their drivers. Additionally, it describes driver requirements, vehicle requirements, financial terms, and contains an
arbitration clause for dispute resolution between ITCs
and Uber.

Uber also requires that drivers sign a Driver Addendum,5 which is a legal agreement between the ITC and

4 ITCs are independent companies "in the business of providing transportation services." App. 385. Some ITCs are self incorporated solo drivers, while others, like Plaintiffs' ITCs, are
larger companies that work with additional drivers who utilize
the Uber Driver App. Uber directly contracts with an ITC via
their Technology Services Agreement.
5 The Driver Addendum states, "[i]n order to use the Uber
Services, Driver and Transportation Company must agree to the
terms and conditions that are set forth below. Upon Driver's execution (electronic or otherwise) of this Addendum, Driver and

App. 6

the for -hire driver, before a driver can utilize the

Driver App. The Driver Addendum allows a driver to
receive "lead generation and related services" through
Uber's Driver App. App. 409. The Addendum also outlines driver requirements (such as maintaining a valid
driver's license), insurance requirements, dispute resolution, and the "Driver's Relationship with Uber," in
which Uber uses clear language to attempt to establish

the parameters of the Driver's working relationship

with Uber.6 App. 411.

For UberBLACK, Uber holds a certificate of public con-

venience from, and is licensed by, the Philadelphia

Parking Authority ("PPA") to operate a limousine company. Transportation companies and individual transportation providers who provide Black car services in

Transportation Company shall be bound by the terms and conditions set forth herein." App. 409.
6 Boilerplate language in the Driver Addendum to the Technology Services Agreement sets forth, among other things, that
ITCs "acknowledge [] and agree [ ] that Uber is a technology ser-

vices provider" that "does not provide transportation services,
function as a transportation carrier, nor operate [s] as a broker for
transportation of passengers. ." App. 13. "ITCs shall provide all
.

.

necessary equipment; Uber does not direct or control ITCs or their

drivers generally or in their performance." Id. "ITCs and their
drivers retain the sole right to determine when, where, and for

how long each of them will utilize the Driver App or the Uber Service, and ITCs agree to pay Uber a service fee on a per transpor-

tation services transaction basis." Id. ITCs must also "maintain
during the term of this Agreement workers' compensation insurance for itself and any of its subcontractors. . ." Id. The Driver
Addendum also sets forth and requires that the relationship between the ITCs and their drivers is "contractual or [an] employment arrangement." Id.
.

App. 7

Philadelphia are required to hold a PPA certificate of
public convenience or associate with an entity that
holds such a certificate. Some UberBLACK transportation providers operate under the PPA certificate held
by Uber. Luxe, an ITC owned by Razak, operates under

its own PPA certificate. Additionally, approximately
75% of UberBLACK drivers use Uber's automobile insurance.

Plaintiffs claim that they are employees, and sue Uber
for violations of minimum wage and overtime requirements under federal and state laws. Under the FLSA,
employers must pay employees the applicable minimum wage for each hour worked, and, if an employee
works more than forty hours in a given week, the employer must pay one and a half (1 1/2) times the regular

rate for each hour subsequently worked. 29 U.S.C.
§§ 206-207. Plaintiffs contend that time spent online
on the Uber Driver App qualifies as compensable time

under the FLSA. Principal among Plaintiffs' arguments is that Uber controls the access and use of the
Driver App.

To access Uber services, drivers open the Driver App
on a mobile device, log in, and tap a button to be online
Once online, a driver can choose to accept a trip, but if
the driver does not accept the trip within fifteen seconds of the trip request, it is deemed rejected by the
driver. The Driver App will automatically route the trip
request to the next closest driver, and if no other driver
accepts the trip, the trip request goes unfulfilled, as
Uber cannot require any driver to accept a trip. UberBLACK drivers are free to reject trips for any reason,

App. 8

aside from unlawful discrimination. However, if a
driver ignores three trip requests in a row, the Uber
Driver App will automatically move the driver from

online to offline, such that he cannot accept additional
trip requests.
Uber sets the financial terms of all UberBLACK fares,

and riders pay by having their credit cards linked to
the App. After a ride is completed, Uber charges the
rider's credit card for the fare. Uber then deposits the

money into the transportation company's Uber account
with a commission taken out by Uber. The transporta-

tion company then distributes the payment to the
driver who provided the ride.

Uber also has regulations under which it logs off drivers for a period of six hours if the driver reaches Uber's
twelve-hour driving limit. Trip requests are generally
sent to the driver closest in proximity to the requesting

rider, and drivers have no way of knowing from the

Uber Driver App what the demand for drivers is at any
given time (and thus, how much their earnings will be

based on that demand). Drivers also do not know
where a rider's final destination is prior to accepting
the ride.

There is one exception affecting a driver's ability to accept trip requests from anywhere in Philadelphia. If a
driver is at one of Philadelphia's major transportation

hubs: 30th Street Train Station or Philadelphia International Airport, he must utilize a "queue" system that
routes trips to the next driver in the queue, and the

App. 9

driver can only enter, or advance in, the queue while
physically located inside a designated zone.

On appeal, Uber reasserts that Plaintiffs are not em-

ployees as a matter of law, and therefore, their putative
class action should be subject to summary judgment.
To support this contention, Uber portrays UberBLACK

drivers as entrepreneurs who utilize Uber as a software platform to acquire trip requests. Uber asserts
that Plaintiffs are not restricted from working for

other companies, pay their own expenses, and on some
occasions, engage workers for their own ITCs. They can
use UberBLACK as little or as much as they want or
choose not to work for UberBLACK and instead work
for competitors such as Blacklane and Lyft.

Uber asserts that it places no restrictions on drivers'
ability to engage in personal activities while online
Plaintiffs in this matter engaged in a range of personal
activities, including accepting rides from private clients, accepting rides from other rideshare programs,
sleeping, running personal errands, smoking cigarettes, taking personal phone calls, rejecting UberBLACK trips because they were tired, and conducting
personal business.
Alternatively, Plaintiffs claim that they are "employees" under the FLSA because they are controlled by
Uber when they are online and perform an integral
role for Uber's business. The District Court agreed
with Uber's position, and granted Uber's Motion for
Summary Judgment on the question of whether Plaintiffs qualify as "employees" of Uber under the FLSA

App. 10

and PMWA. Plaintiffs now appeal from the summary
judgment order.

II.

Procedural History

Plaintiffs commenced this action in the Court of
Common Pleas of Philadelphia County on January 6,
2016. Defendants successfully removed the action to
the United States District Court for the Eastern District of Pennsylvania asserting federal question and diversity jurisdiction. Uber moved to dismiss the case
and compel arbitration. Alternatively, as a separate
matter, Uber moved to stay this action. The District
Court denied both motions, concluding that Plaintiffs
had complied with the arbitration opt -out procedures
allowed by the Technology Services Agreement. Uber
then moved for judgment on the pleadings, which the
District Court granted in part and denied in part. The
District Court found that Plaintiffs alleged sufficient
facts to support that they were "employees" instead of
"independent contractors," such that judgment on the
pleadings was not appropriate.
Plaintiffs filed an Amended Complaint on October 13,
2016, and Uber moved to dismiss Plaintiffs' Amended

Complaint in its entirety, as well as moved to strike
certain portions of the Amended Complaint in the alternative. The District Court denied the motion to dismiss. The Court found that Plaintiffs' allegations that

they were logged into the Uber Driver App and eligible
to receive trip requests from prospective UberBLACK
riders ("Online") for more than 40 hours was sufficient

App. 11

to state a claim at the pleading stage under the FLSA.
However, the District Court found that the question of
whether Plaintiffs' time spent online was actually compensable work time within the meaning of the FLSA

was a dispositive issue, and designated the issue of
compensability of Plaintiffs' online time for expedited
discovery.

After substantial discovery, Uber moved for partial

summary judgment on the limited issue of whether, assuming that Plaintiffs qualify as "employees" and Uber
as an "employer" under the FLSA for purposes of the

motion only, the time they spent online on the Uber

Driver App is compensable work time under the FLSA,
and by extension, the PMWA. The Court ultimately denied the motion for partial summary judgment, deter-

mining that the compensability question at issue in
the motion "may be inextricably intertwined with the
threshold employee versus independent contractor
question." App. 8.

After discovery was fully complete, Uber filed its motion for summary judgment on the dispositive question

of whether Plaintiffs are employees or independent
contractors. The District Court granted Uber's motion
for summary judgment determining that Plaintiffs do
not qualify as "employees" of Uber under the FLSA and

PMWA. As a matter of law, the District Court found
that Plaintiffs did not meet their burden to show that
they are employees of Uber. Plaintiffs timely appealed
from the summary judgment order.

App. 12

III. Applicable Law: Donovan v. DialAmerica
Marketing, Inc.
The minimum wage and overtime wage provisions at

issue all require that Plaintiffs prove that they are
"employees." 29 U.S.C. §§ 203, 206-207. Although Plain-

tiffs' case includes claims under the PMWA, Pennsylvania state courts have looked to federal law regarding
the FLSA for guidance in applying the PMWA. See
Dep't of Labor & Indus. v. Stuber, 822 A.2d 870, 873
(Pa. Commw. Ct. 2003), aff 'd , 859 A.2d 1253 (Pa. 2004).

The FLSA defines "employer" as "includ[ing] any per-

son acting directly or indirectly in the interest of an

employer in relation to an employee," and "employee"
as "any individual employed by an employer." 29 U.S.C.
§§ 203(d), (e)(1). Given the circularity of the definitions,
federal courts, with guidance from the Department of
Labor, have established standards to determine how to
define employee and employer.
The Third Circuit utilizes the test outlined in Donovan
v. DialAmerica Marketing, Inc., 757 F.2d 1376 (3d Cir.
1985), to determine employee status under the FLSA.
This seminal case acknowledges that when Congress

promulgated the FLSA, it intended it to have the

"broadest definition of 'employee." See id. at 1382 (citing 81 Cong. Rec. 7657 (remarks of Senator Hugo L.

Black)). In DialAmerica, we used six factors-and in-

deed adopted the Ninth Circuit's test-to determine

whether a worker is an employee under the FLSA:

1) the degree of the alleged employer's right
to control the manner in which the work is
to be performed; 2) the alleged employee's

App. 13

opportunity for profit or loss depending upon
his managerial skill; 3) the alleged employee's

investment in equipment or materials re-

quired for his task, or his employment of helpers; 4) whether the service rendered required
a special skill; 5) the degree of permanence of
the working relationship; [and] 6) whether the

service rendered is an integral part of the alleged employer's business.

Id. (quoting Donovan v. Sureway Cleaners, 656 F.2d
1368 (9th Cir. 1981)).

Our decision in DialAmerica is consistent with the Su-

preme Court's general guidance in Rutherford Food

Corp. v. McComb, 331 U.S. 722 (1947). In Rutherford,
the Supreme Court first determined "employee" status
under the FLSA. Id. at 728-30. And in DialAmerica, we

agreed with Sureway Cleaners that "neither the presence nor absence of any particular factor is disposi-

tive." 757 F.2d at 1382. Therefore, "courts should
examine the circumstances of the whole activity," determining whether, "as a matter of economic reality,

the individuals are dependent upon the business to

which they render service." Id. (internal citations and
quotation marks omitted). The burden lies with Plaintiffs to prove that they are employees. See, e.g., Anderson v. Mt. Clemens Pottery Co., 328 U.S. 680, 686-87
(1946) (a plaintiff who brings suit under the FLSA "has

the burden of proving that he performed work for

which he was not properly compensated") (internal citations omitted).

App. 14

IV. The District Court Opinion
The District Court granted summary judgment to
Uber ruling that drivers for UberBLACK are inde-

pendent contractors within the meaning of the FLSA
and similar Pennsylvania laws. The District Court, in
applying the six factors, relied heavily on the analysis
in DialAmerica and other cases that had examined the
use of internet or app -based programs for acquiring

work.

The District Court applied all six factors in DialAmer-

ica, and on balance, found that Plaintiffs were independent contractors. There were four factors the Court
applied that were interpreted in favor of independent

contractor status. The District Court analyzed the
employer's right to control the manner in which the
work is to be performed and noted that the written
agreements entered into by the Plaintiffs and their

transportation companies, in addition to the ability of
Plaintiffs to hire sub -contractors and work for competing companies, point to a lack of control by Uber. Next,
the District Court analyzed the alleged employees' op-

portunity for profit or loss and found that this also
supports independent contractor status. The District
Court found that Plaintiffs can work as much or as little as they would like and choose not to accept trip requests where the opportunity for profit was greater to

work for themselves or competitors. Because the

"profit -loss" factor does not require that Plaintiffs be
solely in control of their profits or losses, Plaintiffs

were unsuccessful in convincing the District Court
that they were employees despite the fact that Uber

App. 15

retains the right to determine how much to charge passengers and which driver receives which trip request.
UberBLACK drivers must purchase or lease their own
expensive vehicle to drive for UberBLACK, demonstrating independent status as well. And the "relationship permanence" can be as long or non-existent as the

driver desires, again illustrating the impermanent

working relationships often found with independent
contractors.

The District Court determined that only two factors
militated in Plaintiffs' favor. As limousine drivers, the
service they render does not really require a special
skill. Second, the limousine driving service rendered to

Uber by UberBLACK drivers is an essential part of
Uber's business as a transportation company. The Dis-

trict Court held that the movant demonstrated that
there was no genuine dispute as to any material fact,
and that a majority of the DialAmerica factors leaned
against employment status. The District Court granted
Uber's motion for summary judgment and determined
that Plaintiffs were independent contractors.
V.

Jurisdiction and Standard of Review

The District Court had subject matter jurisdiction over
the Plaintiffs' FLSA claims under 28 U.S.C. § 1331. The

District Court had and executed supplemental jurisdiction over the Plaintiffs' state law claims under 28

U.S.C. § 1367. This Court has appellate jurisdiction under 28 U.S.C. § 1291 because the District Court's order
granting summary judgment is a final order.

App. 16

This Court exercises plenary review over a District
Court's grant of summary judgment. Aruajo v. N.J.
Transit Rail Operations, Inc., 708 F.3d 152, 156 (3d Cir.
2013). This Court can affirm a grant of summary judgment only if "there is no genuine dispute as to any ma-

terial fact and the movant is entitled to judgment as a
matter of law." Fed. R. Civ. P. 56(a). A factual dispute is

"genuine" if the "evidence is such that a reasonable
jury could return a verdict for the nonmoving party."
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248
(1986). A factual dispute is "material" if it "might affect

the outcome of the suit under the governing law." Id.

The Court must view the facts and evidence pre-

sented on the motion in the light most favorable to the
nonmoving party. Id. at 255. In attempting to defeat
summary judgment, "[s]peculation and conclusory allegations do not satisfy [the nonmoving party's] duty."
Ridgewood Bd. of Educ. v. N.E. ex rel. M.E., 172 F.3d
238, 252 (3d Cir. 1999).

VI. Analysis
A.

Genuine Disputes of Material Fact Exist

For summary judgment to have been appropriate,
there must have been no genuine disputes as to any
material facts on the record, entitling Uber to judg-

ment as a matter of law. See Fed. R. Civ. P. 56(a). As
such, if there is a genuine dispute of material fact, the
question of which DialAmerica factors favor employee

status is a question of fact that should go to a fact finder. Here, the ultimate question of law is whether

App. 17

Plaintiffs are employees or independent contractors,
which is for a judge to decide. But, if a court finds that
there are any issues of fact that remain in dispute, it
must resolve those disputes prior to granting summary

judgment. See DialAmerica, 757 F.2d at 1381. In

DialAmerica, the parties stipulated to some facts and
reserved the right to present testimony on any remaining disputed issues. Then, the district court held an evidentiary hearing on the remaining disputed issues of
fact:

the extent to which home researchers
and distributors were dependent on Dial (1)

America;
(2)

the extent to which they had an oppor-

tunity for profit or loss;

the extent to which they exercised initiative, business judgment, or foresight in their
activities;
(3)

the extent of any financial investment in
conjunction with their work for DialAmerica;
and
(4)

(5)

the extent to which the services provided

by the home researchers and distributors

were an integral part of DialAmerica's business.

Id.

These factual issues refer directly to the factors which
determine whether someone is an employee or independent contractor. The district court resolved these

App. 18

disputes and granted DialAmerica's motion for summary judgment. We reviewed the district court's decision in DialAmerica and determined that summary
judgment was a mischaracterization, but the proper
outcome, as all the factual disputes were resolved prior
to adjudication on the merits.' Id. at 1381, 1388.
DialAmerica teaches that where there are questions of
fact that need resolution, these questions must go to a
fact-finder.8 This case presents such genuine disputes
of material facts. Uber submitted a Statement of Undisputed Material Facts to which Plaintiffs responded
with almost a hundred pages of disputes. For example,
disputed facts include whether Plaintiffs are operating
In DialAmerica, Judge Becker noted that, because the district court held a two -clay hearing to find relevant facts, this Court

would "simply treat the [district] court's letter opinions as the

findings of facts and conclusions of law required by Fed. R. Civ. P.

52, and its orders as judgments entered after trial pursuant to

Fed. R. Civ. P. 58." 757 F.2d at 1381-82. Here, that avenue is not
available to us, as no evidentiary hearing was held to find relevant facts to determine if summary judgment was appropriate.
8 An important distinction exists between a factual dispute,
and a factual dispute that is material. Summary judgment is cor-

rectly granted in many situations where the parties genuinely
dispute facts but where the dispute is not material to the adjudication of the case. See, e.g., Derma v. 3001 Castor, Inc., 937 F.3d
221, 229 (3d Cir. 2019) (granting summary judgment on the question of employee versus independent contractor status, but noting
that "[i]n some cases, one or more genuine issues of fact concern-

ing the relevant economic relations may preclude a trial court
from drawing a conclusion as a matter of law on the
issue [,]"
and addressing that it would be appropriate for those cases to go
to trial so that the genuine disputes of material fact be resolved
.

.

.

by the jury). Here, genuine disputes of material fact exist because
certain facts bear on how the DialAmerica factors will be resolved.

App. 19

within Uber's system and under Uber's rules, and
whether Plaintiffs or their corporations contracted directly with Uber. Although the District Court states

that its decision derived from undisputed facts, the

disputes presented by the parties go to the core of the
DialAmerica factors and present a genuine dispute of
material facts. Accordingly, we will remand to the District Court as summary judgment was inappropriate.
B.

The "Right to Control" Factor

To illustrate that there are genuine disputes remain-

ing, we look to the first DialAmerica factor: "the degree

of the alleged employer's right to control the manner
in which the work is to be performed." DialAmerica,
757 F.2d at 1382 (citation omitted). While not diapositive, this factor is highly relevant to the FLSA analysis.
The District Court in this case held that the first factor
supported a finding of independent contractor status.
Actual control of the manner of work is not essential;
rather, it is the right to control which is determinative.
Drexel v. Union Prescription Ctrs., 582 F.2d 781, 785
(3d Cir. 1978).

The parties contest whether Uber exercises control
over drivers. While Uber categorizes drivers as using
the Uber App to "connect with riders using the UberBLACK product," App. 486, which may imply that driv-

ers independently contract with riders through the
platform, Plaintiffs contend that this is not so. Uber

also contends that drivers can drive for other services
while driving for Uber, however Plaintiffs contend that

App. 20

while "online" for Uber, they cannot also accept rides
through other platforms. Plaintiffs reference Uber's
Driver Deactivation Policy that establishes that "soliciting payment of fares outside the Uber system leads
to deactivation" and "activities conducted outside of

Uber's system-like anonymous pickups-are prohibited." App. 487.

Uber also asserts that it does not control the "schedule
start or stop times" for drivers or "require them to work
for a set number of hours." App. 536. Again, Plaintiffs

dispute this, stating that the Uber Owner/Operator

Agreement states, "[the] frequency with which [Uber]
offers Requests to [the driver] under this Agreement
shall be in the sole discretion of the Company" and "the

number of trip requests available to Plaintiffs
largely driven by Uber." Id.

is

The above factual disputes all go to whether Uber retains the right to control the Plaintiffs' work. The Dis-

trict Court in its analysis acknowledged what the

Plaintiffs asserted, but assigned little value to their assertions in light of Uber's contractual agreement with
Plaintiffs, Uber's assertion that Plaintiffs are permit-

ted to hire sub -contractors, and that "plaintiffs and

their helpers are permitted to work for competing companies." App. 31. However, whether Plaintiffs are considered to "work" for a competing company while being
"online" on the Uber Driver App is also a disputed fac-

tual issue. This illustrates why summary judgment

was inappropriate at this stage.

App. 21

Further, these and other disputed facts regarding control demonstrate why this case was not ripe for sum-

mary judgment. For example, Plaintiffs assert that

"Uber does punish drivers for cancelling trips," App.
539, and "Uber coerces UberBLACK drivers to go
online and accept trips by making automatic weekly
deductions against their account." App. 538. Plaintiffs

additionally assert that they derived all of their in-

come for their respective businesses from Uber in certain years, which Uber disputes.

Although both parties argue that there are no genuine

disputes regarding control, the facts adduced show
otherwise. While Uber determines what drivers are

paid and directs drivers where to drop off passengers,
it lacks the right to control when drivers must drive.
UberBLACK drivers exercise a high level of control, as
they can drive as little or as much as they desire, without losing their ability to drive for UberBLACK. How-

ever, Uber deactivates drivers who fall short of the

4.7 -star UberBLACK driver rating and limits the number of consecutive hours that a driver may work.
C.

Opportunity for Profit or Loss Depending on

Managerial Skill
As with the right to control, the District Court held
that there was no genuine dispute as to another factor-the opportunity for profit or loss depending on
managerial skill. Again, we disagree with the District
Court's conclusion. The District Court, in this case,
ruled that this factor strongly favored independent

App. 22

contractor status because drivers could be strategic in

determining when, where, and how to utilize the

Driver App to obtain more lucrative trip requests and
to generate more profits. Plaintiffs could also work for
competitors and transport private clients.9

However, other material facts reveal that there was
and still is a genuine dispute. For example, Uber decides (1) the fare; (2) which driver receives a trip request; (3) whether to refund or cancel a passenger's
fare; and (4) a driver's territory, which is subject to
change without notice. Moreover, Plaintiffs can drive
for competitors, but Uber may attempt to frustrate
those who try, and most of the factors that determine
9 Indeed, the District Court stressed Plaintiffs' ability "to

make money elsewhere [.1" App. 35. Yet, based on our precedent,
it is unclear whether this factor looks only toward opportunity for

profit or loss within the alleged employment relationship or
whether it also contemplates one's ability to make money elsewhere-as such, external factors, such as the ability to earn outside revenue without terminating the Uber-driver relationship,
may be irrelevant to the analysis. See Martin v. Selker Bros., Inc.,
949 F.2d 1286, 1294 (3d Cir. 1991) (noting that "station operators
had no meaningful opportunities for profit nor . loss, because
the volume of business depended upon the location of each station
.

.

rather than upon the managerial skills of the operators" but not
discussing whether station operators had other jobs elsewhere);

see also Saleem v. Corp. Transp. Grp., Ltd., 854 F.3d 131, 141-42
(2d Cir. 2017) (considering a worker's ability to earn income from

competitors and other sources, but emphasizing that "it is not
what Plaintiffs could have done that counts, but as a matter of
economic reality what they actually do that is dispositive." (inter-

nal citation, alteration, and quotation marks omitted)). As this
argument was not able to be developed by the parties, this, along
with other material factual disputes, is ripe to be developed at
trial.

App. 23

an UberBLACK driver's Uber-profit, like advertising
and price setting, are also controlled by Uber.10 Under
the circumstances, we believe that a reasonable fact finder could rule in favor of Plaintiffs." Thus, summary
judgment was inappropriate.

D. Remaining DialAmerica Factor Analysis
Of the remaining factors, some do not require further
factfinding, while others still do. The fifth factor, degree

of permanence of the working relationship, has genuine disputes of material fact. On one hand, Uber can
take drivers offline, and on the other hand, Plaintiffs can
drive whenever they choose to turn on the Driver App,
with no minimum amount of driving time required.

Alternatively, the fourth factor, whether the service

rendered requires a special skill, is clearer. It is

10 The District Court also considered "Plaintiffs investments
in their own companies" as "relevant to the 'profit and loss' factor," as weighing "heavily in favor of 'independent contractor' sta-

tus." App. 36. But, as stated earlier, parties frame this issue
differently and assert different facts-again showing that summary judgment was inappropriate. For example, Uber asserts
that Plaintiff Razak's ITC Luxe Limousine Services, Inc. invested
in up to sixteen vehicles and had as many as fourteen to seventeen drivers. And while Plaintiffs do not deny that they invested
in their personal vehicles, which they use to provide UberBLACK
rides, as discussed already, there is an inherent dispute regarding
whether drivers are allowed to exercise judgment and select the
farthest rides for the largest payment, as Uber determines which
driver is given which rider.

11 We also note that the District Court did not interpret

whether Plaintiffs could in actuality exercise any managerial skill
while being "online" to increase their profits, only that they could
potentially choose to perform other jobs to make a greater profit.

App. 24

generally accepted that "driving" is not itself a "special
skill." Alexander v. FedEx Ground Package Sys., Inc.,
765 F.3d 981, 995 (9th Cir. 2014). Although there may
be a distinction between "driving" and "replicat [ing]

the limousine experience," as noted by the District
Court, it is not enough to overcome the presumption
that driving is not a special skill. App. 38. This fourth
factor certainly weighs in favor of finding that Plaintiffs are employees.12

VII. Conclusion
In reviewing the District Court decision de novo, we
determine summary judgment was inappropriate because genuine disputes of material facts remained. We
do not opine on whether the disputed facts should be
resolved by a jury or the District Court through a Rule
52 proceeding, as was the case in DialAmerica. However, these material factual disputes must be resolved.
For the foregoing reasons, we will remand the matter
for further proceedings.
12 Lastly, the District Court found that the work Uber-

BLACK drivers provide is integral to the service Uber renders
under the sixth DialAmerica factor. Simply put by the District
Court, "it seems beyond dispute that if Uber could not find drivers, Uber would not be able to function." App. 40. We acknowledge

that Uber strenuously disputes this finding, insisting instead that
it is a technology company that supports drivers' transportation
businesses, and not a transportation company that employs drivers. We also believe this could be a disputed material fact that
should be resolved by a fact -finder.

App. 25

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1944
ALI RAZAK; KENAN SABANI; KHALDOUN
CHERDOUD, INDIVIDUALLY AND ON BEHALF
OF ALL OTHERS SIMILARLY SITUATED,

Appellants

v.

UBER TECHNOLOGIES, INC.; GEGEN, LLC

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil No. 2-16-cv-00573)

District Judge: Hon. Michael M. Baylson

Argued January 15, 2019
Before: SMITH, Chief Judge,
GREENAWAY, JR., and PORTER, Circuit Judges.
ORDER AMENDING PRECEDENTIAL OPINION

App. 26

The panel hereby ORDERS that the Opinion filed
March 3, 2020 be amended to include the language appearing in angle brackets below.

The sentence at page 16 reading, "But, if a court
finds that there are any issues of fact that remain in
dispute, it must resolve those disputes prior to granting summary judgment" shall be amended to read:
"But, if a court finds that there are any issues of <material> fact that remain in <genuine> dispute, it must
resolve those disputes prior to granting summary judgment." The sentence at page 17 reading, "DialAmerica

teaches that where there are questions of fact that
need resolution, these questions must go to a fact finder" shall be amended to read: "DialAmerica teaches

that where there are <genuine> questions of <material> fact that need resolution, these questions must go
to a fact -finder."

BY THE COURT,

s/ Joseph A. Greenaway, Jr.
Circuit Judge
Dated: November 5, 2020
Tmm/cc: All Counsel of Record

App. 27

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT
OF PENNSYLVANIA
ALI RAZAK, KENAN
SABANI, and
KHALDOUN CHERDOUD

CIVIL ACTION
NO. 16-573

UBER TECHNOLOGIES,
INC., and GEGAN, LLC

Baylson, J.

April 11, 2018

MEMORANDUM RE: DEFENDANTS'
MOTION FOR SUMMARY JUDGMENT
I.
INTRODUCTION
This case is the first to grant summary judgment
on the question of whether drivers for UberBLACK
are employees or independent contractors within the
meaning of the Fair Labor Standards Act ("FLSA") and
similar Pennsylvania state laws.

More specifically, Plaintiffs Ali Razak ("Razak"),

Kenan Sabani ("Sabani"), and Khaldoun Cherdoud
("Cherdoud" and, together with Razak and Sabani,
"Plaintiffs") have brought individual and representative claims against Uber Technologies, Inc. and its
wholly -owned subsidiary Gegen, LLC ("Gegen," and
collectively, "Uber") for violations of the federal min-

imum wage and overtime requirements under the

App. 28

FLSA, 29 U.S.C. § 201 et seq., the Pennsylvania Minimum Wage Act ("PMWA"), and the Pennsylvania Wage

Payment and Collection Law ("WPCL"). Before the
Court is Uber's Motion for Summary Judgment (ECF

144, "Uber Mot.") on the question of whether Plaintiffs,

drivers for UberBLACK, qualify as "employees" of
Uber under the FLSA and PMWA.1

In general, under the FLSA, employers must pay
employees the applicable minimum wage for each hour
worked, and, if an employee works more than forty
hours in a given week, the employer must pay one and
one half (11/2) times the regular rate for each hour subsequently worked. 29 U.S.C. §§ 206-07. Thus, among
other things, Plaintiffs seek back pay for their work
driving passengers using the Uber app.
For the following reasons, Uber's Motion for Summary Judgment will be GRANTED. As a matter of law,
Plaintiffs have not met their burden to show that they
are employees and that Uber is their employer.

II.

PROCEDURAL HISTORY
Plaintiffs commenced this action on January 6,
2016, by filing a Complaint in the Court of Common
Pleas of Philadelphia County. (ECF 1, Ex. A). On February 4, 2016, Defendants removed the action to this
Unlike the FLSA and PMWA, "[t]tle WPCL does not create
a right to compensation . rather it provides a statutory remedy
.

.

when the employer breaches a contractual obligation to pay
earned wages." De Asencio v. Tyson Foods, Inc., 342 F.3d 301, 309
(3d Cir. 2003).

App. 29

court, citing federal question and diversity jurisdiction.
(Id.).

A. Prior Motion Practice
On March 22, 2016, Uber moved for the first time
to dismiss this case and compel arbitration, and, in a
separate motion, to stay this action. (See ECF 15, 18).
In those motions, Uber argued that an order issued by

Judge Chen in the Northern District of California

in related cases had "nullified" the arbitration provision in Uber's Service Agreement, thereby raising a
"threshold question of arbitrability" that had to be decided by an arbitrator. Finding that Judge Chen's order
had no such effect, this court concluded that Plaintiffs
had complied with the arbitration opt -out procedures
allowed by the Service Agreement. The Court denied
both motions. (ECF 37); Razak v. Uber Techs., Inc., No.
16-cv-573, 2016 WL 3960556, at *1 (E.D. Pa. July 21,
2016).

On August 19, 2016, Uber moved for Judgment on
the Pleadings, (ECF 38), which, on October 7, 2016,
this Court granted in part, and denied in part. See Razak, 2016 WL 5874822, at *1. Importantly, the Court
found that Plaintiffs had alleged sufficient facts that
they qualified as "employees" rather than "independent contractors," under the "economic realities" test,

such that judgment on the pleadings was not war-

ranted. Id. at *4-5. Accordingly, the Court permitted
Plaintiffs' minimum wage claims to proceed as pled.
The Court dismissed Plaintiffs' breach of fiduciary

App. 30

duty claim with prejudice, but Plaintiffs' FLSA and
PMWA overtime claims without prejudice, and with
leave to file an amended complaint. Plaintiffs then filed
an Amended Complaint on October 13, 2016. (ECF 47,
"AC").

On October 31, 2016, Uber moved to dismiss Plain-

tiffs' Amended Complaint in its entirety, as well as to
strike certain portions of it. (ECF 48). The Court denied the motion to dismiss. (ECF 54; Razak v. Uber

Techs., Inc., 2016 WL 7241795, at *6 (E.D. Pa. Dec. 14,
2016)). Specifically, the Court found that Plaintiffs' al-

legations that they were "Online"2 the Uber App for
more than 40 hours in a given week was sufficient-at
the pleading stage-to state a claim for overtime pay
under the FLSA.

However, the Court further found that the question of whether Plaintiffs' time spent Online the Uber
App was actually compensable work time, within the
meaning of the FLSA, was "an important, potentially
dispositive one in this case." Id. Accordingly, "notwith-

standing the Court's conclusion that Plaintiffs ha[d]
sufficiently alleged FLSA overtime violations," the
Court designated the issue of compensability of Plaintiffs' Online time for expedited discovery. Id.

After substantial discovery, including depositions
of Plaintiffs and certain third parties, as well as other

filings, Uber filed its Motion for Partial Summary

2 Throughout this opinion, the capitalized term, "Online," refers to drivers who are logged into the Uber App and eligible to
receive trip requests from prospective UberBLACK riders.

App. 31

Judgment on the limited issue of the compensability of
Plaintiffs' Online time. While maintaining its position

that Plaintiffs are independent contractors rather

than employees, Uber moved "on the limited question
of whether-assuming, for purposes of [that] Motion
only, that Plaintiffs qualify as 'employees' and Uber as

an 'employer' under the FLSA-the time they spent

Online the Uber App is compensable work time under
the FLSA, and by extension, the PWMA."
On September 6, 2017, the Court held Oral Argument. (See Transcript of 9/6 Oral Argument ("Tr.") ECF
91). The Court ultimately denied the Motion for Partial

Summary Judgment, focusing especially on four undisputed factual issues which indicated that the time
drivers spent logged into the Uber App could be considered " 'predominantly' for the benefit of the employer rather than the employee":

Drivers have at most 15 seconds to accept a trip request from a rider which, if not

(1)

accepted, will be deemed rejected.

If a driver does not accept three trip requests in a row, the Uber App automatically
switches the driver from Online to offline.

(2)

While offline, drivers are not eligible to accept
ride requests.
(3)

The rider's destination is not disclosed to

the driver until the rider's trip begins. Thus,
in considering whether to accept a request,
the driver has no knowledge whether it will
be a short ride or very long-which affects

App. 32

driver compensation and may also restrict
personal activities.

Drivers may only advance in the queue
at the Airport or 30th Street Train Station if
within a certain zone, and may only accept
trip requests at the Airport if inside the west
parking lot.
(4)

Razak v. Uber Techs., Inc., No. 16-cv-573, 2017 WL
4052417 (E.D. Pa. Sept. 13, 2017).

The Court also surmised that "the compensability
question" at issue in that motion "may be inextricably
intertwined with the threshold employee versus independent contractor question." Id., at * 15. Therefore,
the Court's denial of partial summary judgment was
without prejudice to refile at the completion of discovery. See id., at * 16.
B.

The Present Motion for Summary Judgment

After additional discovery, Uber filed its Motion

for Summary Judgment on the present question of

whether Plaintiffs are employees or independent contractors (ECF 114), to which it attached a statement of
undisputed facts. (ECF 114-3, "Uber SOF"). Plaintiffs
filed a Response on February 26, 2018 (ECF 117), together with a statement of facts (ECF 117-3, "SOF Response"). Uber then filed a Reply on March 12, 2018

(ECF 118), together with a "Reply to Statement of
Facts" (ECF 118-3). Plaintiffs were previously granted
leave to file a sur-reply (ECF 110), which they filed on
March 19, 2018 (ECF 119).

App. 33

Plaintiffs then filed a Motion to Strike the Defendants' Reply to Plaintiffs' Statement of Facts, on March
19, 2018 (ECF 120), asserting that the Plaintiffs' Reply

Statement of Facts violated this Court's practice and
procedural order. The Court granted the Motion to
Strike (ECF 121) and Defendants filed an amended Reply to Statement of Facts on April 4, 2018. (ECF 123,
"Reply SOF").

III.

STATEMENT OF FACTS
The following is a fair account of the factual asser-

tions at issue in this case, as taken from, inter alia,
Uber's Statement of Undisputed Facts in Support of
Defendants' Motion for Summary Judgment (Uber
SOF, ECF 114-3), and not genuinely disputed by Plaintiffs.

A. How UberBLACK Works

Plaintiffs are Pennsylvania drivers participating
in the Uber ride -sharing service who bring this action
on behalf of a putative class of "[a]11 persons who provided limousine services, now known as UberBLACK,

through Defendants' App in Philadelphia, Pennsylvania." (ECF 47, AC 1 106). Plaintiffs are certified
limousine drivers who provide services as drivers
through a mobile smartphone application (the "Uber
App") furnished by Uber. (Id. II 2, 22, 63). The Uber
App "provid[es] on -demand car services to the general

App. 34

public," including through the UberBLACK3 platform.
(Id.).

Gegen is a wholly -owned subsidiary of Uber that
holds a certificate of public convenience from (and is

licensed by) the Philadelphia Parking Authority

("PPA")4 to operate a limousine company. (Uber SOF
It 41). Because transportation companies and individ-

ual transportation providers who wish to provide

Black car services in Philadelphia are required to hold
a PPA certificate of public convenience (or associate
with an entity that holds such a certificate) (M.1142),
some UberBLACK transportation providers operate

under the PPA certificate held by Gegen. (Id. ¶ 45).
Approximately 75% of drivers also use Gegen's automobile insurance. (Id. ¶ 96) Plaintiffs each own and
operate transportation companies Luxe Limousine
3 This case only pertains to UberBLACK drivers, and therefore, the Court uses the term "Uber driver" only to mean "UberBLACK driver." UberBLACK is one of several services (or what
Uber calls "platforms") that Uber provides through the UberApp.
Drivers for UberBLACK provide "Black car" service, meaning
that they exclusively drive vehicles approved by Philadelphia for
limousine livery services. (Reply SOF, (1[ 248).
4 A certificate of public convenience permits a "common car-

rier operating a luxury limousine service" to "transport persons
on an exclusive basis between points as authorized by the certificate, if the order for service is received in advance of the actual

rendering of service and not by street hail." 52 Pa. Code

§ 1053.22(a). Only three categories of individuals may provide
limousine services under Gegen's certificate of public convenience: "(1) The owner, if the owner is a limousine driver[,] (2) An
employee of the certificate holder who is a limousine driver[, and]
(3) A limousine driver who leases the limousine directly from the
certificate holder." See 52 Pa. Code § 1051.8(a).

App. 35

Services, Inc. ("Luxe"), Freemo Limo, LLC ("Freemo"),
and Milano Limo, Inc. ("Milano"). (Id. 91 1).

To access the Uber App, drivers open the App on
their mobile device and log in using their usernames
and passwords. (SOF 1156). After logging on, to be eligible to receive a trip request from a prospective rider,
drivers must tap a button, at which point the driver is
online ("Online").5 (Id. ¶ 157). If a driver chooses to accept a trip request, the driver taps "accept." (Uber SOF

to Motion for Partial SJ, ECF 66-3 125). If a driver

does not press the "accept" button within 15 seconds of

the trip request, it will be deemed rejected by the

driver by default. The Uber App will then automatically route the trip request to the next closest driver,
until a driver accepts the request. If, however, no other
driver accepts the trip, the trip request goes unfulfilled, as Uber cannot require any driver to accept a
trip. (Id. (ff 26, 28).

Drivers are free to reject trip requests for any reason, aside from unlawful discrimination. (Id.
22, 24,
50-51). If a driver ignores three trip requests in a row,
however, the Uber App will automatically move the
driver from Online to offline, such that he will not be
eligible at that time to accept trip requests. (Id. 29).
Uber refers to this as a system integrity measure since,
as described above, a trip request is sent to only one

UberBLACK driver at any given time, and having

5 The driver exclusively determines when to go "Online" to
seek trip requests, and Uber permits drivers to stay offline for as
long as they want. (SOF ¶ 161 (undisputed)).

App. 36

drivers who do not intend to give rides Online slows
down the process of connecting riders and drivers, and
leads to a poorer user experience for riders. Drivers
who have been automatically transitioned offline, however, may go back Online at any point, including imme-

diately after going offline, if they wish to do so. (Id.
30).

Uber also has regulations under which it logs off
drivers for a period of six hours if the driver reaches
Uber's 12 -hour driving limit. (See Uber Drowsy Driving Policy, ECF 117-31).

Uber also has regulations under which it reserves

the right to deactivate drivers for "accepting trips

without the intention to complete, including provoking
riders to cancel." (Uber's Driver Deactivation Policy,
ECF 68-6).
B.

Drivers' Physical Location

Trip requests via the Uber App are generally sent
to the driver closest to the requesting rider. (Uber SOF
to Motion for Partial SJ, ECF 66-3 91 35). Drivers have
no way of knowing from the Uber App, what the "demand" is at any given time; namely, whether, or how
many, other drivers are Online (Id. at 6). Uber may,
from time to time, send drivers information about rider
demand that may be of interest to them (e.g., a concert
at the Wells Fargo Center, etc.), specifically dates or
times of high rider demand. (Uber SOF to Motion for
Partial SJ, ECF 66-3 9191 57, 58). However, ultimately

App. 37

drivers independently decide where to go to offer rides
while Online (Id. II 34, 59, 60).

One exception to drivers' ability to accept trip requests from anywhere, so long as they are Online, is at
Philadelphia's major transportation hubs, namely 30th

Street Train Station and Philadelphia International
Airport (the "Airport"). There is a "queue" system at
both locations that routes trips to the next driver in the
queue, (id. 36), and a driver can only enter, or advance in, the queue while inside a designated zone. (Id.
37). Additionally, at the Airport, drivers can only receive trip requests if located inside the "west parking

lot." Drivers, including Plaintiffs, sometimes try to
evade this requirement by, for instance, leaving their
phones inside the designated zone at the Airport (but
outside the west parking lot), such that they can advance in the queue without having to be physically
with their phone. (Id. II 55-56).
C.

Drivers' Activities While Online

Uber places no restrictions on drivers' ability to
engage in personal activities while Online, and Plain-

tiffs here, in fact, engaged in a range of personal activities while Online The undisputed facts in the record

reflect that, while Online, Plaintiffs, inter alia, ac-

cepted rides from private clients, slept, did personal er-

rands, smoked cigarettes, took personal phone calls,
rejected trips because they were tired, and conducted
business for their independent transportation companies. (Uber SOF

181). Drivers also sometimes forget

App. 38

to go offline, such that they remain in the Online mode
on the Uber App despite having no intention of completing trips. (Uber SOF to Motion for Partial SJ 91 46).
Drivers are allowed to use software applications other
than the Uber App and to provide transportation ser-

vices to others "outside of the Uber App. (Uber SOF
¶11 123, 141-143).

The Court accepts, for purposes of this motion,
Plaintiffs' assertion that (1) Razak spent an average of
7 hours and 17 minutes Online each day, receiving an
average of over 10 fare requests each day and complet-

ing more than 6 trips; (2) Sabani spent an average of
12 hours Online each day, receiving an average of more
than 5 requests per day and completing 4 trips; and (3)

Cherdoud spent an average of 9 hours, 16 minutes
Online each day, receiving over 7 ride requests and
completing over 5 trips. (Plaintiffs' Response SOF to
Motion for Partial SJ, ECF 68 11 68 (citing ECF 68-10,
11, 12)). These figures reveal that Plaintiffs spent a
large portion of their time Online not actually completing trips, and engaged, for at least some of the time, in
these various personal activities.

D. Written Agreements Among the Relevant
Parties
Independent transportation companies ("ITC's")
who wish to provide transportation services using the

UberBLACK platform must first enter into a Software

License and Online Services Agreement, or similar
agreement such as a Technology Services Agreement.

App. 39

(Uber SOF 11 19).6 Then, drivers engaged by ITC's who

have entered into such agreements may also use the
Uber App, once they agree to the terms of the Driver
Addendum to the Services Agreement. (Uber SOF
II 23).7

The Services Agreement setting forth the relationship between Uber and companies using the Uber App
states, among other things:

"Customer [defined by the agreement as "an

independent company in the business of
providing transportation services"] acknowledges and agrees that Uber is a technology
services provider that does not provide transportation services, function as a transportation carrier, nor operate as a broker for the
transportation of passengers."
"Customer shall provide all necessary equipment, tools and other materials, at Customer's
6 Plaintiffs dispute this paragraph on the grounds that it

runs contrary to two previously -filed items in this case: the sworn
declaration of Michael Coleman (ECF 15-1) and Uber's Brief in
Support of its Motion to Dismiss (ECF 15). Neither of the two filings contradicts paragraph 19 of Uber's Statement of Undisputed
Facts, as neither states that individuals may gain access to Uber-

BLACK without an ITC first entering into an agreement with
Uber.

Plaintiffs also claim this paragraph is disputed, on the
same grounds as above. Again, neither of the filings cited by
Plaintiffs contradicts Uber's Statement of Undisputed Facts and
thus, there is no genuine dispute as to this sentence. Wherever
this Opinion references a "fact" that Plaintiffs contended in their
submissions was "disputed," the Court found that such dispute
was either not "genuine," or not "material," or both.

App. 40

own expense, necessary to perform Transportation Services."

"Uber does not, and shall not be deemed to,
direct or control Customer or its Drivers gen-

erally or in their performance under this

Agreement specifically, including in connec-

tion with the operation of Customer's business, the provision of Transportation Services,
the acts or omissions of Drivers, or the operation and maintenance of any Vehicles."

"Customer and its Drivers retain the sole

right to determine when, where, and for how
long each of them will utilize the Driver App
or the Uber Services."

"With the exception of any signage required
by local law or permit/license requirements,
Uber shall have no right to require Customer
or any Driver to: (a) display Uber's or any of
its Affiliates' names, logos or colors on any Ve-

hicle(s); or (b) wear a uniform or any other

clothing displaying Uber's or any of its Affiliates' names, logos or colors. . . ."

"In consideration of Uber's provision of the
Driver App and the Uber Services for the use
and benefit of Customer and its Drivers hereunder, Customer agrees to pay Uber a service
fee on a per Transportation Services transaction basis."

"Customer agrees to maintain during the
term of this Agreement workers' compensation insurance for itself and any of its

App. 41

subcontractors as required by all applicable

laws in the Territory."

"Except as otherwise expressly provided here-

in with respect to Uber acting as the limited
payment collection agent solely for the purpose of collecting payment from Users on be-

half of Customer, the relationship between the
parties under this Agreement is solely that of
independent contracting parties."

"The parties expressly agree that: (a) this

Agreement is not an employment agreement,

nor does it create an employment relationship, between Uber and Customer or Uber

and any Driver; and (b) no joint venture, part-

nership, or agency relationship exists between Uber and Customer or Uber and any
Driver."
(Id. 11 22).

The Driver Addendum setting forth the relationship between a transportation company and a driver
engaged by the transportation company (and required
by Uber before Uber will permit the driver to drive us-

ing the UberBLACK product) states, among other
things:

"This Driver Addendum to Technology Services Agreement [1 constitutes a legal agreement between an independent company in
the business of providing transportation services ("Transportation Company") and an independent, for -hire transportation provider
("Driver" [1). Driver maintains a contractual

App. 42

or employment arrangement with Transportation Company to perform passenger
carriage services for the Transportation
Company."

"Uber does not, and shall not be deemed to,

direct or control Driver generally or in

Driver's performance of Transportation Services or maintenance of any Vehicles."

"Driver acknowledges that Uber does not control, or purport to control: (a) when, where, or
for how long Driver will utilize the Driver App
or the Uber Services; or (b) Driver's decision,
via the Driver App, to attempt to accept or to

decline or ignore a User's request for Trans-

portation Services, or to cancel an accepted re-

quest for Transportation Services, via the
Driver App, subject to Uber's then -current
cancellation policies."

(Id. 1 24).

E. How UberBLACK Drivers get Paid

Uber sets the financial terms of all UberBLACK
fares, and riders have their credit cards linked to the
Uber App. (AC 91 3 4 ). Upon completion of the ride,
charges the rider's credit card for the fare. (Id.). The
money then (eventually) goes into the transportation
company's Uber account, with a commission taken out

by Uber. (Response SOF 1 63). The transportation company may then distribute the proceeds, and, for exam-

ple, in the case of Luxe, such money is distributed to
the driver who provided the ride. (Id.).

App. 43

Although some expenses are borne by Uber, the
transportation companies who contract with Uber incur many expenses in supplying and maintaining vehicles, including finance payments, insurance, oil
changes and repairs, towing expenses, maintenance
and car washes. (M. ii 76, 92-93, 103, 121-122). Plaintiffs' companies often went beyond these expenses to

pay for advertising seeking private clients outside of
the Uber App. (See, e.g., id. 'ft i 84, 89-90).
IV.

PARTIES' CONTENTIONS
Stated briefly, Uber's principal contention on its

motion for summary judgment is that Plaintiffs are not
employees as a matter of law, and therefore their putative class action on behalf of all UberBLACK drivers
must be dismissed. In Uber's briefs, Plaintiffs are por-

trayed as entrepreneurial business -owners who use
UberBLACK as a means of acquiring trip requests,
with their primary competition coming from other limousine -for -hire companies. Uber contends that Plaintiffs are not employees of Uber because Plaintiffs are
not restricted from working for other companies, pay

their own expenses (which are substantial), invest in
their own companies, advertise and market for their
own companies, engage workers for their own companies, work using UberBLACK as much or as little as
they want, reject work from UberBLACK as much as
they want, and use business acumen to attain their
own profits (and losses). In Uber's view, UberBLACK is

simply a source of "lead generation," like a "modern-

App. 44

day Yellow Pages," rather than an "employer" under
the FLSA.

In opposition to the motion, Plaintiffs contend that
they are "employees" under the FLSA, and therefore

entitled to overtime pay and other benefits, because
they are extensively controlled by Uber when they are
online, they exercise stamina rather than managerial

skill to determine profit or loss, they must provide certain types and colors of car to drive for Uber,8 they do

not have special skills requiring long training or apprenticeship, they have driven for Uber for years and
for many hours per week, and they perform an integral
role for Uber's business.
V.

DISCUSSION OF LEGAL FRAMEWORK
A. Determining Employee Versus Independent
Contractor Status of Workers
1. FLSA and PMWA Statutory Language

The minimum wage, regular payday, payday notification, and overtime wage provisions at issue in this
case all require that Plaintiffs prove they are "employees." See 29 U.S.C. §§ 203, 206-07; 43 P.S. § 333.104. On

this, the parties wisely agree. See, e.g., Tourscher v.
McCullough, 184 F.3d 236, 242 (3d Cir. 1999) (The
8 This particular contention --that drivers are restricted to
certain vehicle makes and models-will not be addressed in any
detail, because the PPA sets the list of vehicles that limousine
drivers may use in the City of Philadelphia, and Uber only restricts transportation providers from using a single model otherwise approved by the PPA (Toyota Avalon). (Reply SOF, 91 248).

App. 45

relevant portions "of the FLSA [] apply only to workers
who are 'employees' within the meaning of the Act.");

Crump v. HF3 Constr., Inc., 14-cv-4671, 2016 WL
6962532, at *2 (E.D. Pa. Nov. 29, 2016 ("Each of these

claims depends on the determination that Plaintiffs

were employees of Defendants: as Plaintiffs implicitly
acknowledge, Defendants could not have violated the
law if Plaintiffs were not their employees.").
Although Plaintiffs' claims go beyond the FLSA to
include the PMWA, "Pennsylvania courts have looked
to federal law regarding the FLSA for guidance in applying the PMWA." Itterly v. Family Dollar Stores, Inc.,

606 F. App'x 643, 645 n. 4 (3d Cir. 2015); see also

Mackereth v. Kooma, Inc., No. 14-cv-4824, 2015 WL
2337273, at *8 (E.D. Pa. May 14, 2015). Relevant to the
present motion, "Pennsylvania courts look to federal
case law and the tests employed by the federal courts
to determine if a defendant is an employer under the
PMWA." Dep't of Labor & Industry v. Stuber, 822 A.2d
870, 873 (Pa. Commw Ct. 2003) aff'd 580 Pa. 66, 859
A.2d 1253 (Pa. 2004).

The FLSA itself is circular in its definitions of "employers" and "employees." "Employer" is defined as "includ [ing] any person acting directly or indirectly in the
interest of an employer in relation to an employee," and
an "employee" is defined as "any individual employed
by an employer." 29 U.S.C. § 203(d), (e)(1). Thus, courts

have been left to fashion standards for determining
whether an individual is an employee.

App. 46

2. Third Circuit Guidance in Donovan
The seminal case in this Circuit for determining
whether a worker is an employee under the FLSA is
Donovan v. DialAmerica Marketing, Inc., 757 F.2d 1376

(3d Cir. 1985). Donovan makes clear that "Congress
and the courts have both recognized that, of all the acts
of social legislation, the Fair Labor Standards Act has
the broadest definition of 'employee." Id. at 1382 (citing 81 Cong. Rec. 7657 (remarks of Senator Hugo L.
Black) and E.E.O.C. v. Zippo Mfg. Co., 713 F.2d 32, 37
(3d Cir. 1983)).

The Donovan court also set forth six factors for determining whether a worker is an employee:
(1)

the degree of the alleged employer's right to
control the manner in which the work is to be
performed;

(2)

the alleged employee's opportunity for profit
or loss depending upon his managerial skill;

(3)

the alleged employee's investment in equipment or materials required for his task, or his
employment of helpers;

(4) whether the service rendered requires a special skill;

(5) the degree of permanence of the working rela-

tionship; and

(6) whether the service rendered is an integral
part of the alleged employer's business.

Id.

App. 47

Consistent with the Supreme Court's guidance in

Rutherford Food Corp. v. McComb, 331 U.S. 722 (1947)

(determining "employee" status under the FSLA), the
Donovan court instructed that "neither the presence
nor absence of any particular factor is dispositive," and
thus, "courts should examine the circumstances of the

whole activity" with a consideration, "as a matter
of economic reality," of whether "the individuals
are dependent upon the business to which they render service." Id. at 1382-83 (citations omitted). This
"economic -dependence aspect" "examines whether
the workers are dependent on a particular business or
organization for their continued employment." Id. at

1385; see also Bartels v. Birmingham, 332 U.S. 126, 130
(1947).

Applying its standard, the Third Circuit consid-

ered two groups (the "home researchers," and the "dis-

tributors") of alleged employees working for the
defendant, a telephone marking firm. A "major aspect"

of the firm's business was the "sale of magazine renewal subscriptions by telephone to persons whose
subscriptions have expired or are near expiration."
Donovan, 757 F.2d at 1379. To locate subscribers'
phone numbers, the marketing firm used at least three

methods: (1) a computerized telephone -number search
operation; (2) in-house researchers; and (3) a home research program. Id. The third method, at issue in Do-

novan, accounted for 4%-5% of all numbers sought,
whereas the first two methods combined for a total of
70% of all numbers sought. Id. Roughly 25% of the
numbers were never sought. Id.

App. 48

The defendant sought researchers for the home re-

search program through advertising in newspapers.
Prospective "home researchers" then contacted the de-

fendant, and those who remained interested in the

work met with an officer of the defendant to learn how

to properly do the required work, Also during that
meeting, the researchers were asked to sign a document labeled an "Independent Contractor's Agreement." From that point forward, each home researcher

was given 500 or more phone numbers to research,
with periodic appointments at defendant's office to de-

liver their research results and retrieve more phone
numbers to research. The defendant paid five cents for
each successfully researched phone number.

Also as part of the home research program, the defendant hired six or seven "distributors" to pick up and
deliver phone number cards of other home researchers.

In some cases, the distributors also recruited new
home researchers and trained them. By the end of the

program, defendant paid distributors a flat fee per
phone number, with distributors independently negotiating the payment per phone number for the home
researchers to which they distributed number cards.

The Third Circuit initially noted that the trial

court had correctly assessed three of the six factors as
weighing in favor of "employee" status of the home re-

searchers when it found "that, for the most part, the
investment of these workers was not great, the oppor-

tunity for profit and loss was small and the skills

required were few." Id. at 1383. As for the "right -to control" factor, the Third Circuit found that the trial

App. 49

court had misapplied and overemphasized the factor,
because working from home inherently involves some
freedom from, among other things, direct supervision
and strict working hours. Lastly, the appellate court

noted that the district court had not applied the re-

maining two factors, i.e., the degree of permanence of
the working relationship and whether the service ren-

dered is an integral part of the alleged employer's

business. Both of these also weighed in favor of employee status, according to the Third Circuit, because
(1) "[t]he working relationship between the home researchers and [defendant] was, for the most part, not a
transitory one," and (2) "the home researchers were engaged in the location of phone numbers [,] an integral

part of the defendant's business" in light of the fact
that "the primary work of the defendant is locating
phone numbers of various people and calling them to
sell particular products." Id. at 1385. Therefore, because the factors on the whole weighed in favor of "em-

ployee" status, the Third Circuit reversed the district
court and found that the home researchers were "employees" of the defendant under the FLSA.

As for the distributors, the Third Circuit agreed

with the district court's holding that they were not employees for purposes of the FLSA because: (1) "the de-

fendant exercised little control over the distributors'
delivery of cards," and they "were permitted to recruit
their own distributees," (2) "the distributors risked financial loss if they did not manage their distribution

network properly," as they "were responsible for paying
all of their expenses" and "had the authority to set the

App. 50

rate at which its distributes would be paid," (3) "had to
make an investment in their business" and "used paid

advertising in an effort to gain more distributes,"

(4) "needed to possess some degree of managerial skill
to ensure that their revenues exceeded expenses," and,
(5) merely delivered telephone -number search cards,
which is "incident to defendant's business [of locating

and calling numbers to sell products], rather than an
integral part of it." Id. at 1386-87. Notably, despite all
of the above factors weighing in favor of "independent

contractor" status, the Third Circuit stated that they
were providing "appropriate deference" to the district
court's fact-finding in deciding the question, which
they described as "admittedly close." Id. at 1387.

In applying the six -factor test, and parsing the differences between the employment status of the "home

researchers" and the "distributors" under the FLSA,
the Third Circuit provided substantial guidance to aid
this Court's determination as to the employment status of Plaintiffs.

3. Relevant Cases in Other Circuits
a. Cases Involving Non-Uber Drivers For Hire
Although the test applied in other circuits differs
somewhat from the Donovan test described above, a
number of circuit courts have considered the employment status of Black car and other drivers under the
FLSA. Although these cases have not addressed the
fact -specific circumstances applicable to the present

App. 51

dispute regarding Plaintiff UberBLACK drivers, their
analysis is clearly relevant.
In Saleem v. Corp. Transportation Grp., Ltd., 854
F.3d 131 (2d Cir. 2017), the closest analog to the present motion before this Court, the Second Circuit applied its five -factor FLSA test in concluding that the

trial court had not erred in granting summary judg-

ment for the defendants ("CTG") because the plaintiffs
could not be considered "employees." Judge Livingston,
writing for a unanimous panel, stated:

"the record here does not permit the conclusion that Plaintiffs were employees, but instead establishes that they were in business
for themselves [because] Plaintiffs independently determined (1) the manner and extent of their affiliation with CTG; (2) whether
to work exclusively for CTG accounts or provide rides for CTG's rivals' clients and/or develop business of their own; (3) the degree to
which they would invest in their driving businesses; and (4) when, where, and how regularly to provide rides for CTG clients.
Id. at 140.

In the opinion's conclusion, Judge Livingston

pointed to the "narrow compass" of the decision, finding that "[i]n a different case, and with a different rec-

ord, an entity that exercised similar control over

clients, fees, and rules enforcement in ways analogous
to the Defendants here" might be an "employer" under
the FLSA. Id. at 149. Indeed, the panel found it rele-

vant, although insufficient to raise a material issue,

App. 52

that "the Defendants provided Plaintiffs with a client
base, that Defendants charged fees when Plaintiffs utilized Defendants' referral system, [and] that Defendants had some involvement [] in rule enforcement." Id.
Nonetheless, the Court affirmed the trial court's grant
of summary judgment and found the plaintiffs "to be
independent contractors as a matter of law." Id.

Although somewhat less analogous to the present motion, in Chao v. Mid -Atlantic Installation
Servs., Inc., 16 Fed. App'x. 104 (4th Cir. 2001), the
Fourth Circuit considered a lawsuit brought by the
U.S. Department of Labor ("DOL") against WA Telecommunications ("MAT"), alleging that MAT, a broker
providing cable installment services for Comcast, improperly characterized cable installer drivers ("Install-

ers") as "independent contractors" under the FLSA.

Again, the trial court had found that as a matter of law,
the workers in question were independent contractors
not covered by the FLSA, and the appellate court affirmed the finding. In Chao, however, the Fourth Circuit utilized the same six -factor test that courts in the
Third Circuit use post -Donovan, finding that:
(1)

defendants did "not exercise the type of

control over the manner in which the
work is to be performed necessary to
characterize the relationship [] as one of
employee/employer,"

(2)

the Installers had "an opportunity for
profit or loss that is indicative of independent contractor status."

App. 53
(3) "the Installers' "investment in equipment

and their right to employ workers weigh
strongly in favor of concluding that they
are independent contractors,"

(4) "the degree of skill required to install and

repair cable equipment favors independent contractor status."

(5)

"establish [ing] a long-term relationship
[], implying employment [] is not necessarily the norm, nor is it required," such
that the permanence of relationship "factor is neutral," and,

(6) "because MAT is in the business of brokering cable installation to cable providers, the Installers are integral to MAT's

business," but "this factor, standing alone,
does not create an employment relationship."

Id. at 106-]L07 (internal citations and quotation marks
omitted).
Thus, although the sixth factor weighed in favor of
employee status for the Installers, the Court concluded
that, in light of the "totality of the circumstances" and
the fact "that no single factor in the 'economic reality'

test is dispositive," the Installers were independent
contractors under the FLSA. Id.

In Herman v. Express Sixty -Minutes Delivery
Servs., Inc., 161 F.3d 299 (5th Cir. 1998), the Fifth
Circuit considered a DOL lawsuit against a courier
delivery service company alleging that the defendant

App. 54

("Express") had improperly characterized the courier
delivery drivers as "independent contractors" under
the FLSA. As with the two other circuit court opinions
discussed above, in Herman, the appellate court affirmed the trial court's conclusion that the workers in
question were independent contractors.9 In reaching
its conclusion, the Fifth Circuit compared the courier
driver plaintiffs to a group of four employee drivers
who worked for Express and who, unlike the plaintiffs:
(1)

Report for work at a specified time;

(2) Are paid by the hour;

(3) Work a set number of hours that are determined by Express;
(4) Are required to wear a uniform;
(5) Are provided with a company vehicle and
all of the necessary tools of the trade;

(6) Are reimbursed for expenses;

(7) Are not allowed to turn down deliveries;
and

(8) Are under the control and supervision of
Express.

Id. at 302.

Ultimately the Court concluded that Express "had
minimal control over its drivers," the drivers' "profit

or loss [was] determined largely on his or her skill,
9 Like the Second Circuit, the Fifth Circuit also uses a five factor test.

App. 55

initiative, ability to cut costs, and understanding of the
courier business," "the majority of drivers work for Express for a short period of time," and "the Drivers are

able to work for other courier delivery companies,"
which considered all together, demonstrated that the
courier drivers were independent contractors rather
than employees.

b. Other Relevant Cases
In addition to "driver" cases, federal courts have

also considered employment status of workers in other,
closely -:related fact patterns.

In Karlson v. Action Process Serv. & Private Investigations, LLC, 860 F.3d 1089 (8th Cir. 2017), a process

server sued the company for which he worked under
the FLSA, and the case proceeded to a jury verdict that
plaintiff was an independent contractor. On appeal, the
Eight Circuit affirmed the decision, finding that the ev-

idence at trial supported the jury finding, because
Plaintiff: (1) decided which assignments to accept;

(2) was paid a flat rate per job completed; (3) used his
own car, phone, and computer to complete service of
process; (4) did not report for work, punch a time clock,
or otherwise report his hours to the alleged employer;
(5) was not told when to work; (6) left for vacation with-

out permission; and (7) accepted assignments from
other companies. Id. at 1094-95.

In Lawson v. GrubHub, Inc., 15-cv-05128, 2018
WL 776354 (N.D. Cal. Feb. 8, 2018), the plaintiff restaurant delivery driver alleged that he was improperly

App. 56

classified by Grubhub as an independent contractor
under California employment laws. Following a bench

trial, the district court applied California's common
law test (called the Borelloi° test) to find that the
defendant, "an internet food ordering service that

connects diners to local restaurants," could not be considered an employee. Id. at *2. Unlike the present case,
the California common law test places the burden on

the defendant to prove that the plaintiff is an inde-

pendent contractor rather than an employee. Id. at *10.

Also unlike the present case, California's test has a
"principal" factor-"whether the person to whom service is rendered has the right to control the manner
and means of accomplishing the result desired"-as
well as "secondary factors." Id. at *11. The court ultimately found that while:

some secondary factors favor an employee/
employer relationship[,]

.

.

.

[t]he other factors

10 See S.G. Borello & Sons, Inc. v. Dep't of Indus. Relations,

48 Ca1.3d 341 (1989)

" The secondary factors are: (1) whether the one performing
services is engaged in a distinct occupation or business; (2) the
kind of occupation, with reference to whether, in the locality, the
work is usually done under the direction of the principal or by a
specialist without supervision; (3) the skill required in the particular occupation; 4) whether the principal or the worker supplies
the instrumentalities, tools, and the place of work for the person
doing the work; (5) the length of time for which the services are
to be performed; (f) the method of payment, whether by the time
or by the job; (6) whether or not the work is a part of the regular
business of the principal; and (7) whether or not the parties believe they are creating the relationship of employer -employee.
Lawson v. Grubhub, Inc., No. 15-cv-05128, 2018 WL 776354, at
*11 (N.D. Cal. Feb. 8, 2018).

App. 57

[ ] favor a finding that Mr. Lawson was an independent contractor. Of primary significance,
Grubhub did not control the manner or means
of Mr. Lawson's work, including whether he
worked at all or for how long or how often, or

even whether he performed deliveries for
Grubhub's competitors at the same time he

had agreed to deliver for Grubhub.'2 Grubhub
also did not provide Mr. Lawson with any of

the tools for his work (other than a downloadable mobile app) and neither Grubhub

nor Mr. Lawson contemplated the work to be

long term or regular, but rather episodic at
Mr. Lawson's sole convenience.

Id. at *18.

Thus, even with the burden on the defendant (as
opposed to the present case where the burden is on the

plaintiff) (see supra), the court found after trial that
Grubhub had met that burden and demonstrated that

the plaintiff was an independent contractor, as opposed
to an employee.

In O'Connor v. Uber Techs., Inc., 82 F. Supp. 3d

1133 (N.D. Cal. 2015), another case decided under Cal-

ifornia's Borello test, the court stated that, "because a
number of facts material to the employee/independent

contractor determination in this case remain in

12 According to the court's final opinion, "Mr. Lawson worked
for other so-called 'gig economy' companies" prior to performing
Grubhub deliveries, "including Lyft, Uber, Postmates, and Caviar," because "these companies, including Grubhub, [had] flexible
scheduling [that] allowed him to pursue his acting career." Id. at
*2.

App. 58

dispute, the Court denied Uber's summary judgment
motion." Id. at 1135. The court began by analyzing the
"principal" factor under the Borello test, i.e., "whether
the person to whom service is rendered has the right
to control the manner and means of accomplishing the
result desired." Id. at 1149." The court found that this
"critical fact" remained "in dispute" because Uber and
the plaintiffs, drivers for UberX,14 disputed, among
other things, the extent to which: (1) Uber can fire drivers at will; (2) drivers not accepting trips is considered
a "performance issue"; and (3) drivers must dress pro-

fessionally, send text messages to riders, play certain
types of music during trips, and otherwise conform to
Uber's quality control "suggestions."15

13 Unlike the present case, the question of whether a worker
is an employee or independent contractor under California law is

a mixed question of law and fact and thus a question "for the
jury." Hana Fin., Inc. v. Hana Bank, 135 S. Ct. 907, 910 (2015);
compare Borello, 48 Cal. 3d at 349, with Verma, 2014 WL

2957453, at *5, and Martin v. Selker Bros., 949 F.2d 1286, 1292
(3d Cir. 1991) (Stating that, in the Third Circuit, "[t]he employment status of the station operators is a legal conclusion.").
14 UberX is a separate service from UberBLACK, which requires all drivers to be associated with a corporation in order to
gain access to the Uber App. (SOF Response, ECF 117-3, 91 1;
Plaintiffs' Response to Motion for Summary Judgment, at 11).
15 Two last cases bear at least a brief mention.
On November 10, 2017, the United Kingdom's Employment
Appeal Tribunal issued a judgment affirming that, under English
law, Uber drivers are employees. See Nov. 10, 2017 U.K. Employment Appeal Tribunal J. (Appeal No. UKEAT/0056/17/DA) (ECF
117-51). However, the case was decided under four U.K. statutes,
and the decision does not even mention UberBLACK drivers.

App. 59

VI.

LEGAL STANDARD

A district court should grant a motion for summary judgment if the movant can show "that there is

no genuine dispute as to any material fact and the movant is entitled to judgment as a matter of law." Fed. R.
Civ. P. 56(a). A dispute is "genuine" if "the evidence is
such that a reasonable jury could return a verdict for
the nonmoving party." Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). A factual dispute is "material"
if it "might affect the outcome of the suit under the governing law." Id.

A party seeking summary judgment always bears

the initial responsibility for informing the district

court of the basis for its motion and identifying those
portions of the record that it believes demonstrate the
absence of a genuine issue of material fact. Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986). Where the
non-moving party bears the burden of proof on a particular issue at trial, the moving party's initial burden
can be met simply by "pointing out to the district court
.
that there is an absence of evidence to support the
nonmoving party's case." Id. at 325. After the moving
party has met its initial burden, the adverse party's response must, "by citing to particular parts of materials
in the record" set out specific facts showing a genuine
.

.

Instead, it discusses drivers for UberX, UberXL, UberEXEC, UberLUX, UberTAXI, and UberWAV.

Although not specifically relevant to the present case, less
than two weeks ago, the Supreme Court decided a case regarding
the "car dealership exemption" to the overtime provisions of the
FLSA. Encino Motorcars, LLC v. Navarro, 138 S.Ct. 1134 (2018).

App. 60

issue for trial. Fed. R. Civ. P. 56(c)(1)(A). "Speculation
and conclusory allegations do not satisfy [the nonmov-

ing party's] duty." :Ridgewood Bd. of Educ. V. N.E. ex rel.

M.E., 172 F.3d 238, 252 (3d Cir. 1999) (superseded by
statute on other grounds as recognized by P.P. v. West

Chester Area Sch. Dist., 585 F.3d 727, 730 (3d Cir.
2009)). Summary judgment is appropriate if the nonmoving party fails to rebut by making a factual showing "that a genuine issue of material fact exists and
that a reasonable factfinder could rule in its favor." Id.
Under Rule 56, the Court must view the evidence presented on the motion in the light most favorable to the
opposing party. Anderson, 477 U.S. at 255.16

VII. PRELIMINARY ANALYSIS
The Court notes, before approaching the legal distinction between employees and independent contrac-

tors, that these two categories are not the only two
types of business relationship that exist under law,
even if they may be the only relationships relevant to
the present motion. Transportation network companies ("TNCs"), such as Uber and its most frequent U.S.
competitor, Lyft, present a novel form of business that
did not exist at all ten years ago, available through the
16 "The determination of 'employee' status under the FLSA is

a question of law, although it depends on subsidiary factual determinations. Employee status can be determined by the district
court on a motion for summary judgment where there are no genuine disputes of material fact." Verma v. 3001 Castor, Inc., No.
13-cv-3034, 2014 WL 2957453, at *5 (E.D. Pa. June 30, 2014) (cit-

ing Thompson v. Linda And A., Inc., 779 F.Supp.2d 139, 147
(D.D.C. 2011)).

App. 61

use of "apps" installed on smart phones. With time,
these businesses may give rise to new conceptions of
employment status.''
Relatedly, the undersigned has recently adjudicated a dispute by several hundred Philadelphia taxi-

cab companies against the Philadelphia Parking

Authority ("PPA"), asserting that the taxicab companies were entitled to damages because the PPA, which
is authorized under Pennsylvania law to license and
regulate taxicabs and TNCs, failed to regulate TNCs
for a substantial period of time, to the economic detriment of taxicabs. Checker Cab Philadelphia v. Philadelphia Parking Auth., No. 16-cv-4669, 2018 WL
17

In considering what business model Uber has presented,

which has proven greatly popular with consumers, the Court
notes that it shares some characteristics in common with a joint

venture: Uber has provided the technology by which passengers
can receive transportation, and drivers (or more precisely, the
companies for which they work) can earn money from providing
rides. For example, the Pennsylvania Supreme Court stated in
McRoberts v. Phelps, 391 Pa. 591 (1958):
To constitute a joint venture certain factors are essential:

each party to the venture must make a contribution, not necessarily of capital, but by way of
services, skill, knowledge, materials or money;
(2) profits must be shared among the parties;
(1)

(3)

there must be a 'joint proprietary interest

and right of mutual control over the subject matter' of the enterprise;

usually, there is a single business transaction rather than a general and continuous trans(4)

Id. at 599.

action.

App. 62

587298 (E.D. Pa. Jan. 29, 2018). Although the opinion

does not specifically concern limousine services or
UberBLACK, it extensively discusses the differences

between taxicabs and TNCs. Moreover, in the opinion,
the Court had occasion to discuss the methodology by
which TNCs operate, which can be briefly summarized
as follows:

TNCs are a business model through which
customers must use a smartphone app to arrange transportation from a driver, who picks
up and transports a passenger, usually in the

driver's personal vehicle. Compensation is
handled by requiring the customer to "register" a credit card with the TNC's website,

which then makes a charge for the ride on the
customer's credit card. No cash is accepted unless the customer voluntarily gives the driver
a gratuity.
Id. at *10.

VIII. ANALYSIS
In this case, we start with the fundamental prop-

osition that, notwithstanding Plaintiffs' argument

based on New Jersey and California state law, the burden lies with Plaintiffs to prove that they are employees. See, e.g., Anderson v. Mt. Clemens Pottery Co., 328
U.S. 680, 686-87 (1946) (A plaintiff "who brings suit

under the [FLSA] has the burden of proving that he

performed work for which he was not properly compen-

sated."); Schaffer v. Weast, 546 U.S. 49, 56 (2005)
("[T]he ordinary default rule [is] that plaintiffs bear

App. 63

the risk of failing to prove their claims." (citing C.
Mueller & L. Kirkpatrick, Evidence § 3.1, p. 104 (3d ed.

2003) ("Perhaps the broadest and most accepted idea
is that the person who seeks court action should justify
the request, which means that the plaintiffs bear the
burdens on the elements in their claims.")).

As mentioned above, the Donovan factors drive
this Court's analysis. Therefore, each of the six Donovan factors is addressed in detail below.

A. Employer Control-Factor #1
The first Donovan factor is "the degree of the al-

leged employer's right to control the manner in which
the work is to be performed."

At the outset, the Court notes that the written
agreements entered into by the Plaintiffs and their

transportation companies point to a lack of control by
Uber.18 For example, the Services Agreement states,
"Uber does not, and shall not be deemed to, direct or
control Customer or its Drivers generally or in their
performance under this Agreement." (Uber SOF 122).
These agreements, however, go beyond merely characterizing the extent to which Uber can control drivers.
They also specifically detail the many ways that Uber
18 These agreements are not determinative, but they are
clearly relevant. "Though an employer's self-serving label of

workers as independent contractors is not controlling, such a des-

ignation in the franchise agreement is pertinent to the parties'
beliefs about the nature of the relationship." Saleem, 854 F.3d at
141 (citations and parentheses omitted).

App. 64

is not entitled to control UberBLACK drivers. (See

e.g., id. ("Customer and its Drivers retain the sole right

to determine when, where, and for how long each of
them will utilize the Driver App or the Uber Services";
"Uber shall have no right to require Customer or any

Driver to

[]

display Uber's or any of its Affiliates'

names, logos or colors on any Vehicle(s) [,] or [ ] wear a
uniform or any other clothing displaying Uber's or any
of its Affiliates' names, logos or colors.")). As Plaintiffs
themselves point out, "[a]ctual control of the manner of

work is not essential; rather it is the right to control

which is determinative." (ECF 117, "Response to MSJ,"
at 16). See Drexel v. Union Prescription Ctrs., 582 F.2d
781, 785 (3d Cir. 1978); Williams v. Jani-King of Phila.
Inc., 837 F.3d 314, 321 (3d Cir. 2016) ("It is the existence of the right to control that is significant, irrespective of whether the control is actually exercised.").

Nonetheless, Plaintiffs contend that, although the
above -referenced agreements disclaim Uber's control,
"Uber exercises extensive control over UberBLACK

drivers when they are online with the Uber app."
(Plaintiffs' Response, at 12). Specifically, Plaintiffs as-

sert, among other things, that Uber has the right to

exercise substantial control over drivers because Uber
can, pursuant to its contracts: terminate a driver's ac-

cess to the Uber App,19 deactivate a driver for canceling
19 This refers to the Services Agreement, at section 12 (see
Def. MSJ, Ex. 11), which allows both parties to the contract (the
transportation company and Uber-not any driver) to terminate

the agreement with seven days' prior notice without cause, or
without notice if there is, (1) material breach by the other party,
(2) bankruptcy, insolvency, or suspension of payment, or (3) if the

App. 65

tnps,2° "block" drivers manipulating lines at major

transportation hubs,21 deactivate drivers for failing its
background check policy,22 deactivate drivers who fall
short of the required 4.7 -star driver rating,23 make deductions against a driver's earnings,24 deactivate drivers who solicit payments outside of the Uber App,25 and

transportation company or its driver no longer qualifies under ap-

plicable law or the standards and policies of Uber to provide
transportation services (e.g., if the driver could not pass Uber's

background check or if the driver's license is suspended as a result
of a serious moving violation or crime).

20 Uber does not dispute that it reserves such a right. (See

Uber Reply SOF In 249, 251-52).
21

For support, Plaintiffs reference an email from Uber to

Plaintiff Cherdoud on February 18, 2016 (see ECF 117-32), which
states that Mr. Cherdoud would be "blocked from airport pickups
for one week" because he violated Uber's "empty sleeper" policy,
which states: "Partners are not permitted to leave their phones in

the airport zone overnight if they are not present with their own
phone."
22 Uber does not dispute that Uber "deactivated" Plaintiff Razak pursuant to Uber's background policy. According to Plaintiffs,
Plaintiff Razak was convicted of a "DWI" in New Jersey on February 26, 2008. (ECF 117-50).
23

Uber does not dispute that Uber "deactivated" Plaintiff

Sabani because of a low rider rating. (Uber Reply SOF 1 258).
24 Uber makes deductions from checks issued to transportation providers for various items, including insurance costs associ-

ated with Gegen, vehicle payments associated with financing
arrangements, and PPA dues. (ECF 117-14).
25 " [S] oliciting payment of fares outside the Uber system" can
lead to deactivation. (See Uber's Driver Deactivation Policy, ECF
68-6).

App. 66

limit the number of consecutive hours that a driver
may work.26

On the other hand, there are significant indications in this case that Uber does not exercise substantial control over Plaintiffs.

For example, as business owners, Plaintiffs are

permitted to hire sub -contractors or other "helpers" to
drive for UberBLACK using their vehicles, and it is
Plaintiffs' businesses that are paid as a result, not the
"helpers." (See, e.g., Response SOF 91 63 ("The money,

pursuant to Uber's rules, goes into Luxe's Uber account, and then is distributed to the individual who

performed the fare."). See Chao, 16 F. App'x at 107 (affirming independent contractor status for cable televi-

sion installers in part based on the fact that it was the
"Installer's decision whether to hire his own employees
or to work alone," to try to increase profits);

Additionally, Plaintiffs and their helpers are permitted to work for competing companies. This is well -

established as a leading indicator that a worker is an
independent contractor. See Saleem, 854 F.3d at 141
("The fact that Plaintiffs could (and did) work for []
business rivals and transport personal clients while

simultaneously maintaining their franchises with-

out consequence suggests . . that [Defendant] exercised minimal control over Plaintiffs."); Keller v. Miri
.

26 Pursuant to Uber's Drowsy Driving Policy, drivers who

drive for Uber for twelve straight hours are automatically

switched from Online to Offline for six straight hours, after which
they may go Online again to receive trip requests. (ECF 117-31)

App. 67

Microsystems LLC, 781 F.3d 799, 807 (6th Cir. 2015)
("If a worker has multiple jobs for different companies,
then that weighs in favor of finding that the worker is
an independent contractor."); Herman v. Express Sixty Minutes Delivery Serv., Inc., 161 F.3d 299, 303 (5th Cir.
1998) (noting fact that "[t]he drivers can work for other
courier delivery systems" supported independent con-

tractor status); Kirsch v. Fleet Street, Ltd., 148 F.3d
149, 171 (2d Cir. 1998) (affirming finding of independent contractor status when, inter alia, the worker "was
allowed to sell merchandise on behalf of other companies").

Defendants also point out that Plaintiffs are basically completely free to determine their working hours.
(Uber SOF ¶ 186). Plaintiffs do not have to report to
work at specific places, at specific times, or on specific
days to "punch the clock." (Id. ¶ 185) They are permitted to go Online as little or as much as they want, subject to some limitations for drivers who fail to meet
quality or safety standards, who may be "blocked" or
deactivated. (Id.) However, such limitations only apply

while Plaintiffs are Online Plus, the limitations are
generally geared towards ensuring safety and quality
control, such as forcing a break upon drivers who have

been driving without any rest for twelve straight

hours. (See Uber Drowsy Driving Policy, ECF 117-31).

See, e.g., Jacobson v. Comcast Corp., 740 F.Supp.2d
683, 690 (D. Md. 2010) ("[D]etailed instructions and a
strict quality control mechanism will not, on their own,
indicate an employment relationship."); Lepkowski v.
Telatron Mktg. Grp., Inc., 766 F. Supp. 2d 572, 579-80

App. 68

(W.D. Pa. 2011) ("[T]hese measures reflect precisely
the type of quality control and customer service su-

pervision that courts have consistently held to be

`qualitatively different' from the control exercised by
an employer over an employee.") (citing, among other
cases, Zheng v. Liberty Apparel Co. Inc., 355 F.3d 61
(9th Cir. 2003).

Moreover, Uber's decision to deactivate Plaintiff
Razak as a result of his conviction for Driving While
Intoxicated does not suggest "control" but rather, a
sense of responsibility for the safety of passengers who
use the Uber App, even if Mr. Razak were remained legally allowed to drive under state law. See, e.g., Moreau
v. Air France, 356 F.3d 942, 951 (9th Cir. 2004) ("Any

airline that is concerned about its passengers' safety
would be remiss to simply delegate a task to another
party and not double-check to verify that the task was
done properly."); Jacobson, 740 F. Supp.2d at 391 ("It is
[ ] significant that the control Comcast does exercise is
in part designed to protect Comcast customers.").27

Given the unique business model which TNCs,
such as Uber, have created, and their applicability to

Uber BLACK drivers, the fact that Uber does exercise
some control when UberBLACK drivers are Online
27 Several of the cases in this paragraph arise under the

question of "joint employment," to which courts apply a distinct
but heavily related inquiry. Such cases are particularly relevant
here, because UberBLACK's written agreements are entered into
by corporations for which individual drivers then work, which is
precisely the relationship involved in each of the "joint employment" cases cited above.

App. 69

does not convert UberBLACK drivers into employees.

The Court likens this situation to a carpenter, or a

plumber, who is engaged to complete a renovation pro-

ject for a homeowner. Very often, the exact date and
time that the plumber/carpenter will come to the home
is negotiated, but if the contractor is late or cancels,
there is little the homeowner can do. The homeowner
may impose certain requirements while the carpenter/plumber is in the house, such as not permitting certain fumes, footwear, music, or other conditions-but
all of these conditions apply only while the carpen-

ter/plumber is in the home- and they certainly do
not suffice to conclude that the carpenter/plumber is
an employee.

Thus, the Court concludes that, on the whole, the
first Donovan factor-"the degree of the alleged employer's right to control the manner in which the work
is to be performed" weighs heavily in favor of "independent contractor" status.

B. Employee Opportunity for Profit or LossFactor #2

The second Donovan factor is "the alleged employee's opportunity for profit or loss depending upon
his managerial skill."
It is undisputed that UberBLACK drivers are permitted to work as much or as little as they would like,
subject to certain limitations, discussed earlier. (Uber

SOF (11 186 ("Uber does not require drivers to be online
on the Uber App at any time."). They are also permitted

App. 70

to work during whichever hours they choose, and to
drive (within territorial limits) wherever they choose.
They can concentrate their efforts around certain "high

times" of the day, week, month, or year, in order to
capitalize on "surge" pricing. (See, e.g., ECF 117-26
("Surge Pricing Article") (In "cases of very high demand, fares may increase to help ensure those who
need a ride can get one," thereby increasing the rates
that drivers receive for each ride.)). UberBLACK driv-

ers can also-and indeed actually do-choose to work
for competitors when they believe the opportunity for
profit is greater by doing do. (Reply SOF 91 181 ("While

online, Plaintiffs [] accepted rides from private cli-

ents."); ¶ 179 ("While online, transportation providers
are free to run a personal transportation company and
distributed trips to other drivers.").

In fact, Plaintiffs themselves have taken advantage of such opportunities through their own respective companies, named Luxe, Freemo, and Milano
(Reply SOF ¶ 1; see id. (11 147 ("Freemo advertised
.

.

.

and that advertising generated phone calls for trip

requests,") 91 82 ("Luxe advertised [and] developed an

internet presence . so that its drivers could receive
trip requests," 11 181 ("While online, Plaintiffs, inter
alia, accepted rides from private clients [and] conducted business for their independent transportation
companies.")). In other words, where the opportunity
for profit was greater by choosing not to accept trip requests, Plaintiffs were free to make money elsewhere
(even while actively remaining Online the Uber app
to assess whether, for example, there was any "surge"
.

.

App. 71

pricing). These facts strongly indicate that Plaintiffs
are independent contractors pursing their own entrepreneurial opportunities in search of profit. See
Saleem, 854 F.3d at 144 ("By toggling back and forth
between different car companies and personal clients,
and by deciding how best to obtain business from [De-

fendanifs clients, drivers' profits increased through
their initiative, judgment, or foresight-all attributes

of the typical independent contractor.") (citations and
quotation marks omitted); Donovan v. DialAmerica

Mktg., Inc., 757 F.2d at 1387 (finding independent
contractor status where workers exercised "managerial skill to ensure that their revenues exceeded ex-

penses"); Brock v. Mr. W. Fireworks, Inc., 814 F.2d 1042,

1047 (5th Cir. 1987) (Under the economic reality test,
"it is not what [Plaintiffs] could have done that counts,
but as a matter of economic reality what they actually
do that is dispositive.").

Plaintiffs contend that there remain disputed issues of material fact with respect to this "profit and
loss" factor because, for example, Uber's app determines whether each driver receives any given trip request (based on proximity, among other factors), and
because Uber retains the right to determine how much
to charge passengers. However, these assertions do not

create any material dispute, because the "profit and

loss" factor does not require that Plaintiffs be "solely in
control of their profits or losses." Chao, 16 F. App'x at
107 (holding that cable installers were "no less in con-

trol of their net profits

. . .

than typical independent

contractors," where the installers contended they could

App. 72

not "unilaterally determine how many Comcast customers they will service on a given day or the rate at
which they are paid for each job.").

The Court discussed some of the above issues in

its opinion dated September 13, 2017 (ECF 93) denying

summary judgment on the issue of compensability.
However, it bears emphasis that, unless the Uber-

BLACK driver is Online, he or she will not be earning
any money. It is only once the driver goes Online, which
is completely in control of the driver, that the opportunity to earn profits begins. See, e.g., Chao, 16 F. App'x

at 107 (affirming the district court's holding, which
held that cable television installers can control their
own profits "by agreeing to work more or fewer hours");

Herman, 161 F.3d at 304 (affirming independent contractor status for courier drivers because, "[a]lthough

[plaintiff] maintains that [defendant] controls customer volume and the amount charged to customers,
the drivers had the ability to choose how much they
wanted to work.").

In sum, this factor strongly favors a conclusion

that Uber BLACK drivers are not employees.28

28 Although the extent of Plaintiffs' investments in their own
companies will be discussed infra, Plaintiffs' capital investments
are also relevant to the "profit and loss" factor, and weigh heavily
in favor of "independent contractor" status. Herman, 161 F.3d at
308 ("If the workers have sizeable capital investments at stake,
they are more akin to independent entrepreneurs seeking a return on their risky capital investments, than to employees.") (citations omitted).

App. 73

C. Employee Investment-Factor #3
The third Donovan factor is "the alleged employee's investment in equipment or materials required for his task, or his employment of helpers."

The major investment here is that UberBLACK
drivers must purchase (or lease) their own expensive
vehicles. Plaintiffs basically concede that this factor is
strong evidence that they are not employees, instead
stating that the "control" factor "moots" this factor. (see
Response to MSJ, ECF 117-1, at 20 ("At first glance this

is arguably the only Donovan factor favoring independent contractor status
[but] the legal significance of the Plaintiffs' investments is mooted by
Uber's control over those investments.")). Although
.

.

.

Plaintiffs are correct insofar as they acknowledge that
the Court is tasked with a holistic assessment of the
"economic realities" of the alleged employment relationship, it remains unclear how Plaintiffs' extensive
personal investments are "mooted" by the "control" factor.

For example, Plaintiffs contend-and Uber concedes-that "Uber deducts money" from Plaintiffs for

"vehicle finance payments." (Reply SOF, 95). What
Plaintiffs do not emphasize is that Plaintiffs have cho-

sen to undertake this financing arrangement, which
is not required of drivers for UberBLACK. (Id.) The
fact that Uber presents this option, as well as insurance and incorporation referrals, (Id. II 244), does not

App. 74

convert Uber into an employer under the FLSA.29 Furthermore, the fact that Plaintiffs receive financing for
some of their companies' vehicles does not somehow

minimize that it was Plaintiffs, rather than Uber, that
made significant capital investments which remain in
their possession even if they choose to work for another
company or individual. See United States v. Silk, 331
U.S. 704, 719 (1947) ("where the arrangements leave

the driver -owners so much responsibility for investment and management as here, they must be held to

be independent contractors"); Saleem, 854 F.3d at
144-46 ("large capital expenditures-as opposed to
`negligible items, or labor itself'-are highly" indicative of independent contractor status); Freund v. Hi -

Tech Satellite, Inc., 185 F. App'x 782, 784-85 (11th Cir.
2006) (cable installer "drove his own vehicle and provided his own tools and supplies"); Browning v. CEVA
Freight, LLC, 885 F. Supp. 2d 590, 608 (E.D.N.Y. 2012)

("Plaintiffs made substantial investments in their

businesses. They utilized their own vehicles and
were responsible for the costs and expenses associated
with the vehicle, [which] weighs in favor of independent contractor status.").
.

.

.

This factor strongly favors independent contractor
status.

29 Whether Uber's participation in such financing arrangements requires it to comply with other statutory or regulatory law
is beyond the scope of the present case.

App. 75

D. Special Skills-Factor #4
The fourth Donovan factor is "whether the service
rendered requires a special skill."

It is generally accepted that "driving" is not itself
a "special skill." See, e.g., Alexander v. FedEx Ground
Package Sys., Inc., 765 F.3d 981, 995 (9th Cir. 2014).
However, this case does not involve solely the ability to
drive. UberBLACK drivers replicate the limousine experience, and drivers are expected to maintain a high
level of customer service. In fact, Plaintiffs themselves
extensively emphasize the fact that drivers are subject

to a number of "requirements" and "limitations" that
they must navigate to start driving for UberBLACK as
well as find success while doing so. (See, e.g., Response

to MSJ, at 13 ("Uber requires all drivers to maintain a
`driver rating' of at least 4.7 out of 5 stars.") Thus, although perhaps not strictly rising to the level of "special
skills," UberBLACK drivers are not comparable to, for

example, the delivery driver in Grubhub. 2018 WL
776354, at *16 ("[A]nyone with a means of delivery can

contract to deliver for Grubhub-no special skills are
needed."). Instead, UberBLACK drivers bolster their
earnings by managing when, where, and how to perform their task of transporting passengers. (See, e.g.,
ECF 117-26 (In "cases of very high demand, fares may
increase to help ensure those who need a ride can get
one," thereby increasing the rates that drivers receive
for each ride.).

App. 76

Thus, while this factor weighs in favor of finding
that Plaintiffs are "employees," it does not carry much
weight in establishing Plaintiffs' burden.

E. Relationship Permanence-Factor #5
The fifth Donovan factor is "the degree of permanence of the working relationship" between the worker
and the alleged employer.

Generally, independent contractors have variable
or impermanent working relationships with the principal company because they "often have fixed employ-

ment periods and transfer from place to place as

particular work is offered to them, whereas 'employees'
usually work for only one employer and such relationship is continuous and indefinite in duration." Baker v.
Flint Eng'g & Constr. Co., 137 F.3d 1436, 1442 (10th
Cir.1998) (internal quotation marks omitted); see also
Keller v. Miri Microsystems LLC, 781 F.3d 799, 807
(6th Cir. 2015) (same). This factor, once again, relates

to the fact that UberBLACK drivers have basically
complete freedom regarding how long they wish to
serve in this capacity and the hours in which they
serve. In other words, there is no permanence of the
working relationship whatsoever, unless the driver
wants it.

Plaintiffs contend that, because Plaintiffs have
driven for Uber for years, and for "many hours per

week" (Response to MSJ, at 21), there is "relationship
permanence." Although facially persuasive, this "fact"
reflects Plaintiffs' choices rather than Uber's necessity.

App. 77

It is also simply untrue. (Uber SOF II 184 ("Plaintiff
Razak testified that he left on vacation for two months
in 2017, but did not have to ask permission from Uber
to go offline for that long.")). Plaintiffs sought profits as
they saw fit, during hours and on days that they chose

with no advance notice as to when, where, or for how
long they would work. In other words, just as in the
case of the black -car drivers in Saleem, Plaintiffs used
this freedom to, at times, work many hours per week,
but this does not weigh in favor of "employee" status:
[T]his case resembles those in which we and
other Circuits have recognized independent
contractor status. In Kirsch v. Fleet Street, for
example, [the Second Circuit] upheld a jury
finding that the plaintiff was an independent

contractor when, inter alia, he "was not re-

quired to spend time in the company's offices

[and] was free to set his own schedule and
take vacations when he wished." 148 F.3d at
171. Likewise, in Herman v. Express Sixty Minutes Delivery Service, Inc., the Fifth Circuit concluded that a courier service "had minimal control over its drivers" such that they
were independent contractors because, inter
alia,"[t]he drivers set their own hours and days
of work." 161 F.3d at 303. Similarly here, Plain-

tiffs' freedom in choosing when, where, and
with what regularity to drive CTG clients shows

the extent of their economic independencethat they operated their "business organization[s]" on their own terms, and as they saw
fit. Rutherford, 331 U.S. at 730, 67 S.Ct. 1473.

Saleem, 854 F.3d at 148.

App. 78

Because UberBLACK drivers can work as little or
as much as they want-the hallmark of a lack of "rela-

tionship permanence" with an alleged employer-this
factor weighs heavily in favor of Plaintiffs' independent contractor status.

Integrality of Service-Factor #6
The sixth Donovan factor is "whether the service
rendered is an integral part of the alleged employer's
F.

business."

As noted elsewhere in this opinion, and in other

cases, Uber drivers are an essential part of Uber's business as a transportation company. See, e.g., O'Connor,
82 F. Supp. 3d at 1141 ("Uber simply would not be a
viable business entity without its drivers."). Indeed, it
seems beyond dispute that if Uber could not find driv-

ers, Uber would not be able to function. Similarly,

Uber's drivers depend on Uber's technology in getting
jobs. However, it is worth noting that UberBLACK is

only one of the many services that Uber provides

through its Uber app.3°

Nevertheless, the Court finds that this factor

tends to support the Plaintiffs' burden of proof that
they are employees. This is only the second factor that
supports such a conclusion, but only to a slight degree.

" For example, Plaintiffs submitted a U.K Employment Appeal Tribunal Decision regarding the employment status of drivers for UberX, UberXL, UberEXEC, UberLUX, UberTAXI, and
UberWAV. (ECF 117-51).

App. 79
IX.

CONCLUSION

Plaintiffs have had a full opportunity to present
all relevant facts bearing on the question of whether
they are employees under the FLSA. Accepting that
there are some disputes of fact, the Court viewed all

evidence in the light most favorable to Plaintiffs, as required by Anderson v. Liberty Lobby, Inc.. See 477 U.S.
at 255. Nonetheless, given the "totality of the circumstances" and the fact "that no single factor in the economic reality test is dispositive," Chao, 16 Fed. App'x.
at 107, Plaintiffs have not brought to the record sufficient proof to meet their burden of showing that they
are employees.
For the foregoing reasons, Uber's Motion for Summary Judgment (ECF 66) will be GRANTED.

An appropriate Order follows.

App. 80

UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 18-1944
ALI RAZAK; KENAN SABANI; KHALDOUN
CHERDOUD, INDIVIDUALLY AND ON BEHALF
OF ALL OTHERS SIMILARLY SITUATED,

Appellants

v.

UBER TECHNOLOGIES, INC.; GEGEN, LLC

On Appeal from the United States District Court
for the Eastern District of Pennsylvania
(D.C. Civil No. 2-16-cv-00573)

District Judge: Hon. Michael M. Baylson
SUR PETITION FOR REHEARING
Present: SMITH, Chief Judge, McKEE, AMBRO, CHAGARES, JORDAN, HARDIMAN, GREENAWAY, JR.,
SHWARTZ, KRAUSE, RESTREPO, BIBAS, PORTER,
MATEY, and PHIPPS, Circuit Judges.

The petition for rehearing filed by Appellees in the

above -entitled case having been submitted to the

judges who participated in the decision of this Court

and to all the other available circuit judges of the
circuit in regular active service, and no judge who

App. 81

concurred in the decision having asked for rehearing,
and a majority of the judges of the circuit in regular
service not having voted for rehearing, the petition for
rehearing by the panel and the Court en bans, is denied.

The judges who participated in the decision will
issue an order amending the opinion to clarify the lan-

guage in two sentences. The changes do not in any way
alter the judgment.
BY THE COURT,

s/ Joseph A. Greenaway, Jr.
Circuit Judge

Dated: November 5, 2020
Tmm/cc: All Counsel of Record

